<html>
<title> - PROPOSED BUDGET FOR FISCAL YEAR 2012 FOR THE FOREST SERVICE</title>
<body><pre>[Senate Hearing 112-20]
[From the U.S. Government Publishing Office]


2011

                                                         S. Hrg. 112-20
 
      PROPOSED BUDGET FOR FISCAL YEAR 2012 FOR THE FOREST SERVICE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   TO

 CONSIDER THE PRESIDENT'S PROPOSED BUDGET FOR FISCAL YEAR 2012 FOR THE 
                             FOREST SERVICE

                               __________

                             MARCH 3, 2011


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
66-580                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="583f2837183b2d2b2c303d3428763b373576">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            RAND PAUL, Kentucky
MARK UDALL, Colorado                 DANIEL COATS, Indiana
JEANNE SHAHEEN, New Hampshire        ROB PORTMAN, Ohio
AL FRANKEN, Minnesota                JOHN HOEVEN, North Dakota
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Poling, Jan, Vice President, General Counsel & Corporate 
  Secretary, American Forest & Paper Association.................    34
Tidwell, Tom, Chief, Forest Service, Department of Agriculture...     3

                                APPENDIX

Responses to additional questions................................    37


      PROPOSED BUDGET FOR FISCAL YEAR 2012 FOR THE FOREST SERVICE

                              ----------                              


                        THURSDAY, MARCH 3, 2011

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Why don't we go ahead and get started. 
Senator Murkowski is on her way here but asked us to proceed 
without her.
    Today's hearing is to consider the President's proposal for 
the Forest Service's fiscal year 2012 budget. We welcome Chief 
Tidwell, who has been before this committee many times before. 
We welcome him back. We appreciate him coming to testify.
    The budget is tight. This proposal would cut the Forest 
Service's discretionary budget by nearly $180 million. It would 
significantly impact a number of important programs and cut 
staffing levels to the lowest level in decades.
    I commend the Administration for its proposal to fund the 
Collaborative Forest Landscape Restoration Program and also the 
FLAME Wildfire Suppression Fund which are important programs 
that were recently enacted with strong support of this 
committee. The proposal to create an Integrated Resource 
Restoration Account has been improved from last year and would 
be a positive step to increase land management efficiency and 
effectiveness.
    I also support the Administration's commitment to the Land 
and Water Conservation Fund, which will enable high-priority 
land acquisition projects to proceed with broad local support 
in the large majority of the States that are represented on 
this committee. However, I also have concerns with some of the 
proposals in the budget. One of those is the proposal to use 
discretionary program funds for County Payments instead of 
mandatory funding which we, of course, have had in recent 
years.
    I'm also concerned about the cut to the chronically 
underfunded Land Ownership Management program, which funds work 
on land exchanges, on boundary surveys, rights-of-way for 
electric lines and pipelines and communication lines and other 
critical infrastructure.
    I have a number of questions related to some of these 
issues which I will hope to get to during the question period. 
Let me see if Senator Murkowski wanted to make any statement 
before we call on you, Chief Tidwell.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Good morning, 
Chief. My apologies for being tardy this morning.
    I want to welcome you to the hearing, Chief Tidwell. I must 
tell you how glad I am that you came through your medical scare 
and apparently are doing well. Hopefully we won't chase you out 
of here too hard. I know that your job is not an easy 1. I know 
that the challenges that face the Forest Service and your 
leadership team are fairly daunting.
    Once again your agency is recommending some changes to the 
budget structure including the combination of a significant 
number of programs in an integrated resource restoration 
account. But, given the difficulty the Forest Service seems to 
be having accomplishing work under the existing FY10 and FY11 
budget formulation, perhaps I can be persuaded that this year's 
proposed formulation makes sense.
    I'm concerned that the proposal to take seven line items 
and turn them into one called the ``IRR'' will make it much 
more difficult to figure how or where the funding is spent.
    I'm concerned about preeminent reauthorization of the 
stewardship contracting, which last year you proposed to 
replace commercial timber sales, and your failure to provide 
the four 10-year timber sale contracts in Roscoe that were 
promised.
    I'm also concerned about your proposal to combine the 
forest planning and inventory and monitoring line items 
together into one line item that may facilitate your draft 
Forest Plan rule but will make forest planning more expensive 
and perhaps more unworkable.
    We know that since 1997 over 41 million acres of national 
forest land has been damaged or destroyed by insect activities. 
Your science advisors expect that activity to continue, I 
understand, for the next decade. That equates to 19 percent of 
all the forested acres within the 13 intermountain States and 
as high as 33 percent in some States.
    We know that in FY10 the Forest Service treated less than 
two-tenths of 1 percent of the bark beetle impacted areas. 
Spending over $101 million of funding to treat 59,000 acres 
makes me question whether the Forest Service is ready to be 
trusted with a ``big bucket'' approach like that which is 
called for in your integrated response restoration proposal. 
Considering the apparent difficulty the agency is having 
responding to the bark beetle epidemic, I would suggest that 
now is not the time to be acquiring new lands while cutting the 
fire assistance program and other programs that rural 
communities depend upon. The last thing your agency needs is 
the added burden of having to manage yet more lands during 
periods of declining budgets.
    In a number of places your budget recommends zeroing out 
entire programs but suggests that the work done in the past in 
those programs will be accomplished through other budget line 
items. But the budget provides no additional specifics. Given 
the difficulty most of the programs have had meeting the 
accomplishment goals in the past year, I hope that you'll have 
an opportunity this morning to more fully explain which 
employees and programs will cover the work of the programs you 
are recommending to be eliminated.
    In your testimony that was presented, the written 
testimony, you have a portion titled, ``Jobs in Rural 
Communities''. As you know I was born down in Ketchikan in the 
Tongass Forest. I was down in Ketchikan in January again 
visiting, and I would suggest to you that there's a level of 
cynicism and certainly skepticism about the promises there.
    In Southeast, as you know, the big mills were gone years 
ago. But this year the second largest remaining mill in 
Southeast closed. It's gone from over 600 employees down to 6.
    The sole remaining large mill is desperately worried about 
its timber supply. The second largest timber related 
construction company is gone. The largest is now down to 4 
employees. So I can tell you, Chief, they do not believe in the 
``Jobs in Rural Communities'' program and the 6 point vision 
plan for growth. They're not buying into it anymore.
    We recognize that in Southeast, 98 percent of Southeast 
Alaska is owned by the Federal Government--98 percent. The vast 
majority of that is in the Tongass National Forest. Income is 
declining in Southeast. It's the only region of our State where 
the population is declining and getting older. That is a direct 
result of what we have seen from the policy and management 
changes coming out of the Forest Service.
    I want to work with you to reverse these trends. We've had 
a chance to discuss it. I look forward to your comments on the 
budget here this morning. But please know that I remain very, 
very concerned about the sustainability of our communities 
within the Southeastern region and how within the Forest 
Service we can work to revive them.
    Mr. Chairman, I look forward to the testimony this morning 
and again, thank you.
    The Chairman. Thank you very much.
    Chief Tidwell, why don't you go right ahead with your 
testimony and then we'll have some questions?

STATEMENT OF TOM TIDWELL, CHIEF, FOREST SERVICE, DEPARTMENT OF 
                          AGRICULTURE

    Mr. Tidwell. Mr. Chairman, members of the Subcommittee, 
once again it's a privilege to be here today to discuss the 
President's 2012 budget request for the Forest Service. I'm 
joined here today with Kathleen Atkinson, our budget director.
    I want to thank this committee for the support you've shown 
the Forest Service in the past. I look forward to continuing to 
work with you to provide more of the things that American 
people need and want from their national forests and 
grasslands. The President's budget is designed to support the 
Administration's priorities for maintaining and restoring the 
resiliency of America's forests.
    Additionally this budget request reflects our commitment to 
fiscal restraint with significant reductions to some very 
important programs. But that is to ensure that we are spending 
efficiently and focusing on the priorities of the American 
public. The budget supports these priorities through 4 key 
objectives.
    First is to restore and sustain the forests and grasslands 
by increasing the collaborative efforts to build support for 
the restoration activities and create jobs. The budget requests 
full funding for the Collaborative Forest Landscape Restoration 
Fund. Mr. Chairman, I'd like to thank you again for your 
leadership with this program.
    It also increases the emphasis on protecting and enhancing 
watershed health with a request for 80 million for a new 
priority watershed and job stabilization initiative that will 
fund large scale projects that will focus on watershed 
restoration and job creation. It does propose a revised 
integrated resource restoration budget line item to align our 
budget structure with the work that's being done on the ground. 
This will facilitate a much more integrated approach to 
developing project proposals that will result in more work and 
in more jobs.
    We will continue to track our traditional targets such as 
board feet, stream miles improved. But we will also track the 
overall outcomes of restoration so that we can show that we're 
making a difference on a landscape scale. Then we'll continue 
to incorporate climate change adaptation and mitigation 
strategies to determine how our management needs to change to 
increase the ecosystem's resistance to the increased frequency 
of disturbances like fire, insect and disease outbreaks, 
invasives, flood and drought.
    The second objective is the budget provides for funding for 
our wild land fire suppression. This includes a level of 
preparedness that will continue our success to suppress 98 
percent of wild land fires during initial attack. It calls for 
a realignment of preparedness and suppression funds that more 
accurately displays costs. It provides for the FLAME fund to 
increase accountability and transparency and reduce the need to 
transfer funds during large fires. It also increases the 
emphasis on hazardous fuel projects to reduce the threat of 
wild fire to homes and communities by doing more work in the 
wild land urban interface.
    The third objective is to increase support for community 
based conservation with the America's Great Outdoors 
Initiative. We'll do this by helping America reconnect with the 
outdoors by increasing conservation education programs and our 
volunteer opportunities through our youth programs. It'll build 
on the success of our 28 job corps centers by supporting a 
creation of a 21st century conservation service corps program 
to create more skills, to build skills, provide work 
experiences for more of our youth.
    We'll continue to work with our States to use our State and 
private forestry programs to promote conservation and to help 
keep private forests forested. The budget requests an increase 
in our LWCF funding in our Forest Legacy program to use 
conservation easements and acquisition to protect critical 
forests but also protect public access that's being threatened 
by land conversion.
    The fourth objective is to further support the economic 
opportunities in rural America by supporting the recreational 
opportunities that not only add to the quality of our lives, 
but support these communities with an annual expenditure of 
about $13 billion that is spent by our recreation visitors 
every year in these communities. We also would encourage 
biomass utilization and other renewable energy opportunities 
and continue to explore ways to process oil and gas permit 
applications and energy transmission proposals more efficiently 
than we have in the past.
    Then it also proposes a framework for a 5-year 
reauthorization of the Secure Rural Schools Act with $328 
million in our budget request to fund the first year. Now we 
want to work with the committee to consider options for 
mandatory funding for this program and also for the legislative 
proposal. Our goal is to increase the collaborative efforts to 
encourage greater public involvement in management of our 
national forests and grasslands.
    We want to maintain and restore healthy landscapes. We need 
to take care of the ecosystem. But we also need to support 
healthy, thriving communities and provide jobs in rural areas.
    Again, thank you for the opportunity to address the 
committee. I look forward to answering your questions.
    [The prepared statement of Mr. Tidwell follows:]

Prepared Statement of Tom Tidwell, Chief, Forest Service, Department of 
                              Agriculture

    Mr. Chairman and members of the committee, it is a privilege to be 
here today to discuss the President's Budget request for the Forest 
Service in fiscal year (FY) 2012. I appreciate the support this 
committee has shown the Forest Service in the past, and I look forward 
to working together in the future to ensure that stewardship of our 
Nation's forests and grasslands continues to meet the desires and 
expectations of the American people. I am confident that this budget 
will allow the Forest Service to support this goal, while also 
reflecting our commitment to fiscal restraint and ensuring we are 
spending efficiently.
    As the Secretary testified earlier this week, we need to take some 
serious steps to reduce the deficit and reform government so that it's 
leaner and smarter for the 21st century. The FY 2012 budget USDA is 
proposing reflects the difficult choices we need to make to reduce the 
deficit while supporting targeted investments that are critical to 
long-term economic growth and job creation. To afford the strategic 
investments we need to grow the economy in the long term while also 
tackling the deficit, this budget makes difficult cuts to programs the 
Administration cares about. It also reflects savings from a number of 
efficiency improvements and other actions to streamline and reduce our 
administrative costs. It looks to properly manage deficit reduction 
while preserving the values that matter to Americans.
    A healthy and prosperous America relies on healthy forests and 
grasslands and the benefits they provide: clean air and water, carbon 
storage, renewable energy, food and fiber, fertile soils, wildlife 
habitat, and recreation opportunities. The Forest Service delivers 
incredible value to the public by protecting and enhancing these 
benefits through forest health restoration, research, and financial and 
technical assistance to partners. Our national forests and grasslands 
help to sustain 224,000 jobs in rural areas and contribute an estimated 
$14 billion to the Gross Domestic Product (GDP) each year through 
visitor spending alone.\1\ In addition to managing 193 million acres on 
155 national forests and 20 grasslands in 44 States and Puerto Rico, 
the Forest Service helps improve stewardship of lands outside the 
National Forest System. The agency partners with and provides technical 
assistance to other Federal agencies as well as Tribal, State and local 
governments; private landowners; and non-profit organizations for the 
betterment of the Nation's forests and grasslands. Furthermore, the 
agency is a leader in cutting-edge research on climate change, 
bioenergy, wildfire management, forest pests and diseases, ecological 
restoration and other conservation issues. The agency works to 
efficiently maximize limited resources and create a high return on 
investment for the American taxpayer.
---------------------------------------------------------------------------
    \1\ USDA Forest Service. National Visitor Use Monitoring Results. 
http://www.fs.fed.us/recreation/programs/nvum/
---------------------------------------------------------------------------
    The FY 2012 President's Budget request for the Forest Service 
totals $5.1 billion in discretionary appropriations, a $178 million 
decrease from the FY 2011 annualized continuing resolution, and a $239 
million decrease from the FY 2011 President's Budget request. This 
decrease is achieved through several program re-combinations that 
streamline operations and increase efficiency and through major 
reductions in programs, including Roads, Facilities and National Fire 
Plan programs and associated State and Private Forestry Programs. In 
addition, the FY 2012 budget includes $44 million in targeted cost 
saving measures for the Forest Service through reduced travel and 
improved acquisition management procedures. These actions will allow us 
to focus limited resources on programs where we can achieve the 
greatest impact and that are of highest priority to the American 
people. Our budget priorities respond to the public's desire to make 
smart Federal investments that will allow us to pass on to future 
generations the beauty, wildlife, water and natural resources that we 
have today.
    The FY 2012 budget for the Forest Service supports President 
Obama's America's Great Outdoors (AGO) initiative, the goals of the 
USDA's strategic plan, and Secretary Vilsack's ``all-lands vision.'' It 
aims to maintain and enhance the resilience and productivity of 
America's forests through four funding priorities: Enhancing Water 
Resources, Responding to Climate Change, Community-based Stewardship, 
and Jobs in Rural Communities.
    Climate change, severe wildfires, disease and pests have all 
contributed to declining forest health. With the current forest health 
crisis threatening the future of our forests, ecological restoration\2\ 
is a key component to our FY 2012 strategy. We need to ensure that our 
forests are resilient in the face of future uncertainties. To most 
effectively address this forest health issue, we must work across 
landscapes and ecosystems, as well as across ownership boundaries. The 
Forest Service also aims to create jobs in rural areas, more actively 
involve local communities in caring for their land, and improve access 
to natural areas. Ensuring the sustainability of rural communities and 
increasing community collaboration in natural resources management are 
critical to the success of restoration efforts and the continued 
provision of goods and services from forest ecosystems. Finally, using 
forest biomass byproducts from ecological restoration activities as a 
source of renewable energy can help enhance U.S. energy security, 
economic opportunity, environmental quality, and global 
competitiveness. In FY 2012 we aim to strengthen biomass utilization 
efforts through our work with other agencies and our programs that 
encourage market development for woody biomass.
---------------------------------------------------------------------------
    \2\ By restoration, we mean the process of assisting the recovery 
of resilience and the capacity of a system to adapt to change if the 
environment where the system exists has been degraded, damaged, or 
destroyed. Ecological restoration focuses on reestablishing ecosystem 
functions by modifying or managing the composition, structural 
arrangement, and processes necessary to make a terrestrial and aquatic 
ecosystem sustainable and resilient under current and future 
conditions.
---------------------------------------------------------------------------
    Our four key funding priorities highlight how we as an agency are 
continually working to ensure that we are responding to the needs of 
the American public.
                       enhancing water resources
    One of the most important services that the American people receive 
from forested landscapes is the provision of clean and abundant 
drinking water. An adequate supply of clean water is integral to the 
health and prosperity of the United States. Over half of the Nation's 
freshwater supply originates on public and private forest lands, and is 
the source of drinking water for more than 200 million people. The 
National Forest System (NFS) alone provides fresh water to 
approximately 66 million people, or one in five Americans. In addition, 
healthy rivers, lakes and streams are crucial to sustaining aquatic 
life, supporting terrestrial ecosystems, and providing high-quality 
recreation opportunities. Maintaining an adequate supply of clean water 
will be one of the biggest challenges of the 21st century as our 
forests and communities continue to deal with climate change, severe 
wildfires, invasive pests, severe storm events, and development 
pressures.
    In June 2009, the Administration implemented the High-Priority 
Performance Goal (HPPG) initiative, asking agency leaders to deliver 
results on a limited number of priorities that are of high value to the 
American public. Ensuring that our national forests and private working 
lands enhance our water resources and are conserved, restored, and made 
more resilient to climate change is a USDA HPPG. In order to achieve 
this goal, the Forest Service in collaboration with the Natural 
Resources Conservation Service (NRCS) and Farm Services Agency (FSA) 
will be working to implement high-impact targeted practices that are 
expected to have the greatest impact on protecting water resources on 
over 6 million acres in priority landscapes. These priority areas 
include targeted acreage on national forests and private working lands 
in the Chesapeake Bay Basin, Great Lakes, Mississippi River Basin/Gulf 
of Mexico, and California Bay Delta/Sierras.
    The Integrated Resource Restoration (IRR) budget line item, first 
proposed in the FY 2011 budget request, will allow us to effectively 
integrate interdisciplinary restoration treatments that will protect 
and improve our water resources. The FY 2011 budget request proposed to 
combine the Forest Products, Vegetation and Watershed Management, and 
Wildlife and Fisheries Management budget line items from previous 
years. In addition to these programs, Collaborative Forest Landscape 
Restoration, Legacy Roads and Trails, road decommissioning, and post-
fire Rehabilitation and Restoration have also been added to IRR for the 
FY 2012 request. Moreover, the portion of hazardous fuels management 
funding work outside the wildland urban interface (WUI) has also been 
added to IRR for the FY 2012 request as the agency works toward 
restoring historic fire regimes on the non-WUI portion of NFS lands. 
Restoration projects require the integration of various stewardship 
activities. Thus, combining these programs will allow us to use 
resources more efficiently and will also create the vehicle that will 
allow the Forest Service to move toward restoring watersheds as a top 
priority. A new watershed condition metric will be used to evaluate 
improvements in watershed health using a national standard and provide 
clear accountability for the IRR program area. Specifically, we are 
proposing an $80 million Priority Watershed and Job Stabilization 
initiative that will use the Watershed Condition Framework, State 
Forest Assessments, costs, and input from local communities to 
prioritize projects to fund to make progress toward improving watershed 
condition class. Proposed projects will be developed by the Forest 
Service and will come from the Action Plans created for the priority 
watersheds identified as part of the Watershed Condition Framework. We 
will also continue to use some of our established targeted measures, as 
well as continue to track outcomes related to past measures. FY 2012 
restoration projects will maintain and improve water quality and 
watershed function, improve fish and wildlife habitat, and integrate 
forest products production into stewardship and watershed restoration 
activities.

                      RESPONDING TO CLIMATE CHANGE

    Climate change jeopardizes the benefits that the public receives 
from America's forests and grasslands, including clean air and water, 
forest products, and recreational opportunities. Many of the management 
challenges that we have faced over the past decades have been 
exacerbated by climate change, including catastrophic wildfires, 
changing water regimes, insect infestations, and disease. In FY 2012, 
the Forest Service will continue to focus on incorporating climate 
change adaptation into multiple program areas, which includes making 
ecosystems more resistant to climate-related stressors, increasing 
ecosystem resilience to disturbance driven by climate change, and 
facilitating landscape-scale ecological transitions in response to 
changing environmental conditions. This priority is again tightly tied 
to restoration and our IRR budget line item. Restoring key functions 
and processes characteristic of healthy, resilient ecosystems allows 
them to withstand future stressors and uncertainties. Examples of IRR 
projects include decommissioning roads to reduce the risk of erosion 
from severe storms, reducing fuels outside the WUI to reduce the risk 
that severe wildfire will damage resources near important watersheds or 
critical habitat, and reforestation to stabilize critical watersheds 
and soils impacted by natural events and to increase long-term carbon 
sequestration capacity.
    The Forest Service has developed a Roadmap for Responding to 
Climate Change in order to guide the agency in achieving its climate 
change goals. The Roadmap focuses on three kinds of activities: 1) 
assessing current risks, vulnerabilities, policies, and gaps in 
knowledge; 2) engaging internal and external partners in seeking 
solutions; and 3) managing for resilience, in ecosystems as well as in 
human communities. The agency has implemented a scorecard to measure 
progress made by each national forest and grassland. The scorecard 
assesses agency capacity, partnerships and education, adaptation, 
mitigation, and sustainable consumption.
    Our commitment to responding to climate change is underscored in 
the proposed Planning Rule, published for comment in the Federal 
Register on February 14, 2011. The Forest Service will begin to operate 
under the proposed Planning Rule in FY 2012 after it is finalized, 
emphasizing citizen collaboration and an all-lands approach to 
management planning, ecosystem restoration, and climate change 
mitigation. A new budget line item, Land Management Planning, 
Assessment and Monitoring, has been proposed for FY 2012. Combining the 
previous line items Land Management Planning and Inventory & Monitoring 
highlights the clear tie between gathering information through 
monitoring and making management planning decisions. This combination 
better aligns program funding with the objectives of the proposed 
Planning Rule, ensuring that planning, monitoring, and conducting 
assessments are coordinated across the landscape.
    Our climate change research program will continue to help clarify 
how climate change is expected to affect our ecosystems and the 
services they provide and to inform decision-makers as they evaluate 
policy options. With two decades of climate change research, the USFS 
is the authority on how forest and range management can be modified to 
address the challenges of global change.

                      COMMUNITY-BASED STEWARDSHIP

    Working with local communities is critical to the success of 
restoration efforts and increasing ecosystem resilience across the 
landscape. Increasing collaboration with stakeholders can move 
conservation efforts from a scale of thousands of acres to hundreds of 
thousands of acres. Most importantly, working together with 
stakeholders from project planning to implementation helps build 
citizen support for ecosystem restoration projects. The importance of 
getting citizens and communities more connected and involved with the 
outdoors has been emphasized in AGO. AGO seeks to empower citizens, 
community groups, and local, State and Tribal governments to share in 
the stewardship responsibility for protecting, improving, and accessing 
natural areas and their resources, with the end result of a healthy, 
vibrant outdoor legacy for generations to come. The agency is committed 
to achieving greater community-based stewardship in pursuit of 
resilient forests as outlined in the America's Great Outdoors Report. 
The FY 2012 budget strategically allocates resources to support 
exemplary local stewardship models and to catalyze new partnerships and 
innovations. The Forest Service will work towards the goals of AGO 
through multiple program areas.
    Building on the sentiments of the American people, the AGO 
initiative seeks to maximize use of the Land and Water Conservation 
Fund (LWCF), which directs a portion of revenue from offshore oil and 
gas leases to conservation projects. The LWCF funds the Forest 
Service's Forest Legacy and Land Acquisition programs and provides 
local communities the opportunity to cost-share the conservation of 
priority forest land. The FY 2012 budget request funds LWCF at the 
fully authorized amount, which constitutes an increase of $59 million 
for the Forest Legacy program and an increase of $26 million for the 
Land Acquisition program from the FY 2011 annualized continuing 
resolution. Forest Legacy works with States, private landowners, and 
other conservation partners to protect environmentally critical forests 
threatened by land conversion through conservation easements. Project 
funding is based on a nationally competitive process. To date, the 
Forest Legacy program has leveraged more than $630 million in non-
federal matching funds to conserve over 2 million acres of non-Federal 
forest land. In FY 2012, 48 projects have been proposed for funding in 
38 states. Forest Legacy projects keep working forests working, which 
keeps jobs in rural areas. Forest Legacy projects also provide public 
access to recreation in many areas. Land Acquisition supports a similar 
function. Its primary focus is on land acquisitions and donations on 
land adjacent to national forests. In FY 2012, 38 nationally 
prioritized lands have been proposed for funding. Recreation on 
national forest lands results in a boost to local economies and the 
creation of jobs. This budget request includes an increase of $5.4 
million for Recreation in support of AGO.
    Protecting land that borders NFS lands and acquiring in holdings 
abates the threat of development. Subdivisions and houses being 
established immediately adjacent to our wild areas increases costs to 
the agency, particularly for programs such as fire suppression. We have 
invested in protecting wildlife for over a century. By fully funding 
LWCF, our budget will maintain our historic investments for the 
American people. In addition to LWCF, we also have other tools to 
increase our management efficiency and become better neighbors with our 
adjacent landowners and will use these as well. I would like to also 
draw the Committee's attention to the pilot land exchange program 
proposed in the landownership management budget line item, which will 
accentuate the benefits of consolidated land tenure on one of our 
National Grasslands.
    In FY 2012 the Forest Service will commence implementation of the 
2008 Farm Bill's Community Forest and Open Space Conservation Program. 
This program provides eligible Tribal governments, local governments, 
and qualified non-profit organizations cost-share grants for creating 
community forests through fee-simple acquisition. This budget request 
includes an increase of $4.5 million for the Community Forest and Open 
Space Program. These forests will be able to provide public access and 
recreational opportunities, as well as protection of vital water 
supplies and wildlife habitat, demonstration sites for private forest 
landowners, and financial and community benefits from sustainable 
management.
    The Forest Service will continue to expand community engagement in 
restoration efforts on National Forest System land through the 
Collaborative Forest Landscape Restoration Program (CFLR). Under the 
IRR budget line item, CFLR will provide for the continued 
implementation of the ten long-term projects selected in FY 2010 and 
will provide for the selection of additional long-term projects. CFLR 
projects are proposed through multi-stakeholder collaborative planning 
at a local level, and priorities are suggested by a Federal Advisory 
Committee. In 2010, CFLR funded 10 community restoration projects in 
Idaho, California, Colorado, Arizona, New Mexico, Montana, Washington, 
Oregon, and Florida.
    Conservation education and volunteer opportunities will be a 
priority for the Forest Service as we implement AGO recommendations. We 
already have a variety of programs that have successfully connected 
youth to the outdoors, and we will continue to find opportunities for 
engaging youth in conservation efforts in FY 2012. The Lake Tahoe 
Generation Green program works with local community groups to engage 
at-risk high-school students in outdoor leadership and forest 
management activities. The Kids in the Woods program at the Apache-
Sitgreaves National Forest is another example of a successful locally-
based outdoor education program that has taught over 5,000 participants 
about a wide range of topics, including invasive species, water 
conservation, and responsible off-road vehicle use. The Chugach 
Children's Forest in Alaska connects village, rural and inner-city 
youth with a nearby national forest, while motivating local District 
Rangers to work alongside community officials and school 
superintendents, integrating community youth challenges with outdoor 
solutions. Volunteer opportunities will also expand across the Forest 
Service, including wilderness stewardship, trail clearing, restoration 
of historic structures, and campground host duties.
    Finally, the proposed Planning Rule establishes a framework that 
emphasizes a collaborative approach to land management planning, 
assessment, and monitoring. The Forest Service will work with the 
public, Tribes and other partners to develop, revise and amend land 
management plans, conduct assessments and develop and implement 
monitoring programs. Collaborative approaches build citizen support in 
identifying needs, establishing desired conditions, crafting 
alternatives for future management, and identifying information and 
monitoring needs.

                       JOBS IN RURAL COMMUNITIES

    In August 2009 in Seattle, WA, Secretary Vilsack spoke of the need 
for a ``shared vision'' that not only focuses on forest conservation, 
but also on supporting a forest economy that creates jobs and vibrant 
rural communities. The Forest Service is not only committed to 
providing benefits to the American people in the form of clean air and 
water, fish and wildlife habitat, timber, and recreation opportunities, 
but also in the form of jobs and sustainable rural communities.
    Forests and grasslands are an important source of employment and 
rural development. More than 2.5 million Americans have forest-related 
jobs in fields ranging from ecological restoration to outdoor 
recreation services to the forest products industry.\3\ The Forest 
Service provides service contracts for many types of activities 
including tree planting, timber harvesting, noxious weed control, 
culvert replacement, and road reconstruction. Recreation on national 
forest lands also bolsters local economies and creates jobs. The 2010 
National Visitor Use Monitoring Report found that spending by 
recreation visitors in areas surrounding national forests amounts to 
nearly $13 billion each year.
---------------------------------------------------------------------------
    \3\ USDA, Forest Service. 2010. Draft National Report on 
Sustainable Forests. http://www.fs.fed.us/research/sustain/
---------------------------------------------------------------------------
    Over the past year the Forest Service has worked to create and 
retain jobs in rural communities through the American Recovery and 
Reinvestment Act (ARRA) of 2009. The Forest Service received funding 
for two programs. Capital Improvement and Maintenance received funds to 
restore infrastructure that supports public, administrative, and 
recreation uses, while minimizing impacts to ecosystem stability and 
conditions. In addition, Wildland Fire Management received funds to 
protect communities from large fires and to contribute to the 
restoration of fire-adapted landscapes. Final completion of all ARRA 
projects is expected to occur in the next two fiscal years. However, 
the agency will continue to have a jobs focus. Job creation and rural 
development will be a priority in FY 2012.
    One of the highlights of the IRR budget line item is creating job 
opportunities in rural areas. Creating job opportunities through 
landscape-scale restoration projects is a key component of the Priority 
Watersheds and Job Stabilization Initiative under IRR. Stewardship 
contracts and agreements will be a significant method for carrying out 
restoration efforts, and attention will be given to new and emerging 
markets for the wood removed during restoration activities, as well as 
the traditional uses for these products. Building a forest restoration 
economy will create new jobs in rural communities and help diversify 
the forest products industry to support the sustainability of local 
communities and the forest contractor infrastructure needed to perform 
restoration work. Also, we are working to further build a forest 
restoration economy around wood utilization by targeting grants to 
assist small businesses. Since 2005, the Woody Biomass Utilization 
Grant Program has awarded a total of $30.6 million to 123 grant 
recipients in 21 States, including small businesses, non-profit 
organizations, Tribes, and State agencies, to further innovations in 
the wood products sector that lend to job creation.
    The Forest Service has also invested in job creation for youth 
through Job Corps, a partnership with the Department of Labor. This 
program helps people ages 16 through 24 improve the quality of their 
lives through technical and academic career training. With Department 
of Labor funding, we operate 28 Job Corps Civilian Conservation Centers 
across the country that provide approximately 6,200 students per year 
with the skills they need to become employable and independent so that 
they can find meaningful jobs or further education. In March 2010, 
Secretary Vilsack unveiled a green Job Corps Curriculum that will help 
train underserved youth for jobs in the emerging green economy using 
national forests and grasslands as training sites for solar, wind and 
biomass energy demonstrations.
    America's Great Outdoors hopes to build on the success of programs 
like Job Corps by creating a 21st Century Conservation Service Corps 
program that will remove barriers to employment and improve career 
pathways to jobs in natural resource conservation. This includes use of 
the Public Lands Corps Healthy Forests Restoration Act of 2005, which 
expanded youth service opportunities while addressing important 
conservation and societal objectives. The Forest Service has a long-
standing commitment to recruiting employees that contribute to 
workforce diversity; providing opportunities for disadvantaged youth to 
pursue natural resource careers; and creating the next generation of 
land conservationists. The Forest Service will expand on AGO Goal A (to 
develop conservation jobs and service opportunities that protect and 
restore America's natural resources) through the Youth Conservation 
Corps (YCC). This summer employment program aims to accomplish needed 
conservation work on public lands, provides gainful employment for 15-
through 18-year olds from diverse backgrounds, and develops in them an 
understanding and appreciation of the Nation's natural environment and 
heritage.
    To continue supporting the communities that we work in, the FY 2012 
President's Budget proposes a five-year reauthorization of the Secure 
Rural Schools Act, named Payments to Communities, and includes $328 
million of discretionary funding for FY 2012. This Act provides annual 
payments to counties for schools and roads, forest restoration/
protection, and fire assistance. The proposal modifies the existing 
framework to emphasize enhancing forest ecosystems, improving land 
health and water quality, and increasing economic development 
activities. The Administration is open to working with Congress to fund 
either through discretionary or mandatory appropriations.

                        WILDLAND FIRE MANAGEMENT

    The FY 2012 budget request continues to reflect the President's 
commitment to responsibly budget for wildfires, ensuring fire 
management resources are used in a cost effective manner in high 
priority areas. The 10-year average of suppression costs is fully 
funded, and the allocations between Preparedness and Suppression funds 
have been adjusted to ensure that readiness needs are fully funded for 
this fiscal year. The budget request includes a two-tier system for 
fire suppression. The Suppression account will be the primary source of 
funding for responding to wildfires, covering the costs of initial and 
smaller extended attack operations. The FLAME reserve account will 
provide better accounting of funds to cover fires escaping initial 
attack that are large and complex, as it did last year. This system 
ensures that funds are available to fight fires without diverting funds 
from other critical Forest Service programs and activities.

                               CONCLUSION

    This President's budget request for FY 2012 takes a comprehensive, 
all-lands approach to conservation that addresses the challenges that 
our forests and grassland currently face, while also taking into 
consideration the need to reduce spending and to find the most 
efficient way to do our work.
    The future of our country's forests and the valuable ecosystem 
services they provide depend on our ability to manage for an uncertain 
climate and uncertain market. This means landscape-level restoration, 
working across ownership boundaries, relying upon a foundation of 
strong science to guide decisions, and collaborating with Tribal, 
State, local, private, and other Federal stakeholders to achieve common 
goals. A comprehensive approach to restoring unhealthy ecosystems will 
help make our forests more resilient to stressors and disturbances 
related to climate change and protect our vital water resources. At the 
same time, we can significantly contribute to economic recovery and job 
support by building a forest restoration economy. Greater involvement 
of citizens and communities is key to successfully implementing 
restoration efforts at large geographic scales. Our vision in creating 
healthy landscapes not only includes creating healthy ecosystems, but 
also creating healthy, thriving communities around our Nation's forests 
and grasslands and providing jobs in rural areas. The FY 2012 budget 
request highlights these priorities.
    I look forward to sharing more with you about our FY 2012 
priorities and working with you in shaping the proposals laid out in 
this budget. Thank you for your time and attention, and I look forward 
to answering any questions you may have.

    The Chairman. Thank you very much. Let me start with a 
couple questions.
    One is on the whole issue of fighting fires which is a big 
part of what your agency winds up having to do each year I 
understand. We've had a circumstance over many years where in 
order to get the funding needed to fight fires you had to go in 
and steal the money essentially or borrow the money from other 
accounts. According to the figures I've got there's about $417 
millions that over the years was borrowed from other accounts 
to fund emergency wild fire suppression operations.
    This budget proposes to rescind $192 million in unobligated 
balances from previous years which I gather is essentially 
saying that $192 million of the money that was borrowed from 
these other accounts we're now going to rescind and never spend 
and since they restore that to the Federal treasury. Shouldn't 
that money be used for the projects that were funded by 
Congress and the Administration rather than just rescinded at 
this point? It seems to me that the action or the proposed 
action by the Administration is contrary to what Congress 
already voted to do and the President agreed to.
    Mr. Tidwell. Mr. Chairman, first I want to once again thank 
you for your leadership and support of the FLAME fund. That act 
now will do a lot to reduce the need for us to borrow funds in 
the future from our other accounts to pay for suppression.
    With our budget request to rescind $192 million that's to 
help offset our current budget request. Based on the last 
couple years of a fairly light fire season we have not needed 
all the suppression funds that you've provided over the last 
couple years. So we have not only the FLAME fund, but we also 
have suppression carry over accounts. We believe we don't need 
that money at this time and we feel that a better opportunity 
would be to rescind some of that money to basically offset our 
budget request for 2012.
    The Chairman. Let me ask also about the proposal you have 
there to prevent new capital construction starts. General 
Accountability Office and others have reported concerns that 
the agency is spending more on high lease and maintenance costs 
than it would have to spend if it went ahead with some 
construction of new facilities. Does it make any sense to have 
a blanket policy that prevents the agency from constructing 
facilities when the facts in particular cases would indicate 
that the taxpayer would be better served if we did?
    Mr. Tidwell. Mr. Chairman, our budget represents some 
really tough decisions that we had to make as far as our 
request in realizing we needed to reduce spending in some 
areas. One of those is our construction of new facilities. So 
we feel that the best use of the money that we're requesting in 
2012 would be to complete the ongoing projects before we start 
any new projects.
    No doubt there's some expensive leases that we have that we 
would like to be able to provide different opportunities there 
to reduce our overall costs. But at the same time we feel that 
the best use of these funds is to finish up the work that's 
started now and not do any new starts in 2012.
    The Chairman. Let me ask one other issue here. Your budget 
proposes to eliminate the budget line for a number of programs. 
One is in my State, the Valles Caldera National Preserve. You 
propose to eliminate that.
    You propose to eliminate the budget line for international 
forestry and also for some subsistence programs in Alaska.
    With regards to the Valles Caldera National Preserve, as I 
understand it the budget proposes that you maintain the same 
level of funding that you had in fiscal year 2010. But you do 
it through 4 different accounts and eliminate the particular 
line item account for the Valles Caldera which has been there 
for quite some time now.
    What's the justification for that?
    Mr. Tidwell. Mr. Chairman, you're correct that we 
anticipate to do the same level of funding for all 3 of the 
programs that you've mentioned with our 2012 budget. But by 
eliminating separate line items it just reduces the accounting 
that has to be done on relatively small budget line items. Each 
of these have a treasury symbol that we have to track to that 
line item.
    By eliminating the line items, but still fulfilling our 
responsibility and commitment to fund these programs, it just 
reduces some of the accounting part of our business that we 
need to do.
    The Chairman. But you're still going to be able to 
demonstrate through your accounting. I assume that you have 
spent the level of funding that you indicate you're planning to 
spend on these items? Right?
    Mr. Tidwell. Yes, we'll be able to show you how much money 
we spent in these 3 areas through our accounting system. We 
just will not have to have a separate treasury symbol for each 
budget line item.
    The Chairman. I don't really know how it simplifies things 
to have to keep track of how much is being spent from 4 
different accounts to achieve the purpose which otherwise would 
be achieved by maintaining one account. But maybe there's some 
alchemy here that I'm just not understanding.
    Senator Murkowski.
    Senator Murkowski. I'm not sure I'm understanding it 
either, Mr. Chairman.
    Chief, I want to ask you a couple questions relating to the 
Tongass Timber Program. Back in 2008 the Forest Service 
committed to preparing an offering for 10-year timber sales 
with volumes of 150 to 200 million board feet each in the 
Tongass National Forest. We both know the history behind it and 
why this action was taken. Congress has repeatedly made 
available pipeline funds to allow for the Forest Service to 
prepare these 10-year sales and other 10-year sales.
    Now we're told that the agency plans to convert 2 of the 
10-year timber sales to stewardship contracts, to offer only 
half of the promised volume and to offer that reduced volume, 
in small parcels. The question to you is: what has happened to 
the commitment to four 10-year sales?
    Mr. Tidwell. Senator, our commitment is to be able to 
sustain the communities in Southeast Alaska. An integrated wood 
products industry is just essential for that. So when I look at 
what we've been doing in the past in Alaska, it has not worked. 
We spent more time in court than we have actually been out on 
the ground getting work accomplished.
    So we've changed our approach to be able to work with the 
communities, work with the villages, work with folks there in 
Southeast Alaska to build support around the work that we can 
get accomplished. Our first stewardship contract that we'll be 
awarding later this spring is a step forward. I recognize we're 
not getting enough work done.
    But I look at what we we're doing in 2008 and 2009, and I 
look at what we accomplished in 2010, and what we plan to 
accomplish in 2011, what we plan to accomplish in 2012, and the 
trend is in the right direction.
    We're building support so that we can actually move forward 
and get the work accomplished on the ground. Right now, as you 
well know, the industry is almost on its last legs. I just 
don't feel we can take a risk on maybe some large projects that 
we can end up being in court over verses being able to get work 
through that we can go ahead and implement.
    So that's our focus. To be able to ensure that we can 
continue to provide work, continue to provide timber sales so 
that the existing infrastructure can stay in place. Then over 
time, to be able to build some credibility that through this 
program, through our stewardship contracts, through our timber 
sales, that folks will feel better about investing in the 
future.
    Senator Murkowski. We've had this conversation before. 
Investing in the future makes it very difficult if everybody 
who has been a participant in this industry is no longer 
around. We keep talking about this transition to second growth. 
I have suggested that there's not going to be anybody left to 
conduct that transition.
    I mentioned this in my opening comments. You say that the 
trend is improving. Going from 600 employees to 6 employees is 
not a trend that I want to see. Recognizing that we have only 
one remaining large mill, the second largest timber related 
construction company is gone. These are not trends that I want 
to continue. I want to reverse these trends.
    I'm concerned because we had a commitment from the 
government, particularly from the Forest Service, to have these 
four 10-year contracts. Now we're down to 2. These are 
stewardship contracts, as you stated.
    I don't disagree with you that we've been hung up in 
litigation. But I'm also not certain that this new approach 
frees us from the litigation and puts us on a better track. 
Again, I've got to speak for the people of Southeastern Alaska 
who feel that they've been given a promise, given a commitment, 
and the Federal Government has not kept that promise. It's been 
to the detriment of the people who live in the region, live in 
the Tongass.
    Let me ask you whether it is correct that the timber sales 
that involve any old-growth timber have to be approved 
personally by the Secretary of Agriculture and his staff.
    I would also like to confirm whether or not any timber 
sales that involve the inventoried roadless areas have to also 
be approved by the Secretary of Agriculture.
    Is that true in both of those cases?
    Mr. Tidwell. With timber sales that involve old growth, no. 
Those decisions are made at the forest level or at the region 
level as they always have been.
    Secretary Vilsack does have an interim directive in place 
when it comes to road less due to the current situation with 
the ruling in the 9th circuit and the 10th circuit. So until 
that's resolved he does consider those and we recommend the 
projects. So far we've been able to move forward with the 
projects that reach him.
    Senator Murkowski. What does that do to cause delay in the 
process? The Secretary is very busy. How tuned-in is he to 
looking at a sale in a particular part of the country? How much 
of a delay does this create by having to run everything all the 
way up to the Secretary of Agriculture?
    Mr. Tidwell. It usually takes about an hour to brief me. 
Then we take the information across the street to his staff and 
have a briefing on it. Usually we get these through in a 
relatively short period of time.
    Senator Murkowski. I don't know that we do that so 
effectively anywhere else in the Federal Government. If it's 
actually a matter of hours, who am I to complain? But I worry 
about the fact that we are taking an issue to the Secretary 
level, when it should be able to be resolved within the 
regions.
    My time is expired. I'll wait for round 2. Thank you.
    The Chairman. Thank you.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Chief, good to have you here. Let me pick up on this point 
that Chairman Bingaman began with. With respect to the Timber 
Payments Law which as you know was written here in this 
committee, written twice.
    What troubles me about the Administration's approach now is 
you all are turning a historical obligation into a year to year 
gamble. That's essentially when you strip down what's going on. 
What's going to happen?
    I think that is very troubling. It is exactly the opposite 
of what the President rejected when he was in Oregon and other 
places in 2008. I know Colorado and a number of States heard 
essentially exactly the same thing.
    So my first question to you is what are you all going to do 
to address what the President talked about which is getting 
these rural communities off this roller coaster of uncertainty? 
Because what I get out of this budget now is the historical 
obligation which is 100 years old, which was, as you know, 
right at the heart of creating the National Forest system. The 
country would enjoy parks and places like the wonderful 
communities I represent to get help for schools and roads and 
basic services seems that it's not only being chipped away. 
It's being replaced, literally taking the historical obligation 
and making it a year to year gamble.
    What are we going to do to help honor what the President 
talked about in 2008?
    Mr. Tidwell. Senator, I share your concern. You know, the 
importance of reauthorization of this act. As you well know 
it's something that's just essential. This is not the time to 
be eliminating this program.
    So that is why we have put $328 million of our 
discretionary funding to dedicate that to the first----
    Senator Wyden. Taking a program that was mandatory. It was 
part of a historical obligation and as you've said, made it 
discretionary.
    Mr. Tidwell. Yes. Senator we want to work with you on 
finding options for mandatory funding. We understand the 
concern.
    I've worked with counties throughout my career. I've worked 
on the original act. I understand the importance of being able 
to provide that certainty so that counties can plan over a 
period of time and not have to be dependent on what happens 
each year.
    So we want to work with you on finding mandatory funding. 
We want to work with you on those considering that. Then also 
we need your support to be able to put together the legislative 
proposal that will also be essential for how this will actually 
work over the next 5 years.
    Senator Wyden. You aren't going to have any trouble getting 
me to work with you to do a 5-year proposal. As you know, 
Chairman Bingaman, Senator Murkowski, many of us put together 
the last one. It certainly required a little bit more 
creativity than people might have thought. It now, of course, 
includes PILT and other approaches and we'll do it.
    But we just cannot put rural communities in this place 
where a, I don't think a lot of them are going to survive. 
They're simply not going to make it. They're walking on an 
economic tightrope today. They're just not going to make it.
    But second, the inability to be able to plan or predict 
what's going to happen is just devastating to them. That gets 
me to the second area that I touched on. It's almost the flip 
side of the Timber Payments legislation is that as you look at 
the historic obligation and recognizing that times have 
changed.
    The question is what are we going to do to get these 
communities into areas where they can be more supportive of 
activities in the private sector? Grow their private sector 
economy which is why we want a lot of the mills to be able to 
do more thinning? Now you all are cutting the hazardous fuels 
accounts by my calculation somewhere in the--overall about $10 
million. It's a little bit hard to kind of follow the way the 
money is moving.
    But perhaps more troubling is according to those charts 
that you all gave the staff. We're not hitting the targets now 
for the thinning that needs to be done. This goes back to when 
this committee basically saved the Healthy Forest Restoration 
Act.
    As you know the bill came over from the House. It was dead. 
A big group from this committee largely worked pump new life 
into it. We said one area we agree on is we've got to have more 
thinning.
    Not getting the thinning done that's needed today to hit 
those targets. The budget is going to go down. So how we going 
to see anything other than less thinning this year compared to 
last year based on your own chart?
    Mr. Tidwell. Senator, you know, I share your concern about 
the amount of work we're getting done. Last year we did exceed 
our timber target. We've actually increased that for this 
coming year.
    Senator Wyden. You exceeded your thinning target last year?
    Mr. Tidwell. We exceeded our forest products target.
    Senator Wyden. I'm looking at a chart. I guess it is goal 
one. Key performance measures. I can't tell what page it's on. 
It says 3-9.
    But it looks like it terms of acres you're at 59 percent. 
So you're saying that exceeded the previous year? That was less 
than 59 percent the previous year? You got it up?
    Mr. Tidwell. The board feet target that we had is what I 
was referring to. There's no question there is a need to do 
significantly more thinning. That is one of the things we're 
going to continue to focus on.
    It's one of the benefits that I hope to achieve through the 
Integrated Resource Restoration budget line item to be able to 
create more efficiencies within the way we design projects. Be 
ableto actually get more work accomplished.
    Senator Wyden. I'm over my time.
    Thank you, Mr. Chairman.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Welcome to the committee. It's good to see you again. 
Appreciate you being here. I just wanted to talk about a couple 
things.
    I'm concerned about the Administration's infatuation with 
limiting multiple use on public lands and obtaining more land 
at the same time. There seems to be a general theme of 
expanding control within the America's Great Outdoors 
Initiative, the Treasured Landscapes and the BLM Secretarial 
Order designated de facto wilderness. The rush to acquire more 
Federal land seems to be in evidence by the Forest Service's 
proposal to increase land acquisitions by 42 percent from last 
year.
    So I'm just curious in these times of debt and deficit does 
it just make more sense to reduce the deficit enable the Forest 
Service to concentrate on properly managing its existing lands 
rather than continue to go out and acquire additional lands?
    Mr. Tidwell. Senator I understand your concern with this 
additional request for more LWCF funding. But that request is 
based on what we've heard from the public. When we did, I 
think, close to 50 listening sessions around the country last 
year on America's Great Outdoors this was one of the things 
that we heard across the country that there was more and more 
support for the land conservation and support for full funding 
for LWCF.
    The way that we use these funds and the majority of our 
increase is in our Forest Legacy program that is for 
conservation easements. The purpose there is to be able to help 
people stay on the land, for those folks that are in a 
situation where they're having trouble to make it on their 
land. Often a conservation easement can allow them to stay on 
their land, that ranch, that farm, their forested lands, to 
stay productive and be able to continue to have working open 
space.
    The other advantage of it is for access. As it just seems 
like there's a trend across the country for folks that have 
private land to start to lock gates and to keep the public from 
crossing their land to be able to get to public land. So this 
is another key focus for both the Legacy program and our 
Acquisition program.
    The other thing is that both, especially the Acquisition 
program, help reduce the cost by eliminating land line 
locations that have to be maintained. It makes it easier for us 
to manage if you have a consolidated block of land. It's easier 
to do projects on that verses if you're dealing with these 
small parcels of private land. It also provides benefit for 
wildlife habitat.
    I understand these are difficult decisions. But as I look 
at the benefits of this program and especially in the economic 
times that we have, it seems to be more and more folks that are 
really struggling to be able to stay on their lands. So by 
increasing the opportunity for conservation easements there's a 
direct benefit to not only help them to stay on the land, but 
also provide the other benefits for the public.
    Senator Barrasso. You're talking about letting people stay 
on their land? I'm looking at what the Forest Service draft 
planning rule is. It quotes, ``planning for landscape scale and 
broader landscape.'' The definition, when you take a look at 
how you define these things: ecosystems, land forms, plant 
communities across a defined area irrespective of ownership or 
other artificial boundaries.''
    So following up on that last answer. How do you envision 
the Forest Service managing at the landscape level and under 
your definition, ``irrespective of ownership or other 
artificial boundaries?'' Do you believe the private property 
lines are artificial boundaries? How does that all fit in?
    Mr. Tidwell. Senator, I respect private property boundaries 
and we all do in the Forest Service. The concept behind taking 
a landscape scale approach within our planning rule is that any 
decisions that are made in a forest plan revision is for the 
National Forest System lands only. But what we want to do and 
when we start the assessment to really consider the changes we 
need to make in current management, we need to factor in what's 
going on on the adjacent landscapes.
    We need to work with the States. We need to work with the 
counties to understand what their needs are so that our 
management is in alignment more with what's going on with their 
lands. So that we can work together.
    For instance, when we're dealing with, as you're well 
familiar with, bark beetle. The idea to stop a project at a 
boundary line verses having the opportunity to be able to look 
at the entire landscape and be able to work together with the 
States, maybe the private landowners so that we do one project 
that maybe covers all of that at the same time. That's the sort 
of thing that we want to do more of.
    It's to be able to understand what's going on with the 
adjacent lands. Then factor that into the management decisions 
that we're making on the National Forest System lands.
    Senator Barrasso. I appreciate your comments on the bark 
beetle because I have a Good Neighbor Forestry act to allow 
people to do that. We met with a little bit of resistance in 
getting additional hearings and having that as part of 
additional discussion. But I think it's critical.
    I do want to recognize the work and the research and the 
funding that the Forest Service has dedicated to bark beetle 
infestation. It seems that the problem is getting ahead of us 
though in terms of the resources that we've had verses the now 
3.6 million acres of mountain pine beetle infestation in 
Wyoming alone. We see what they were able to do in Alberta. It 
made a big difference.
    So with such a success story in other places we're hoping 
that we can get some more actions planned for the treatable 
acres to help restore resilience to our forests here. I'd love 
to hear what your thoughts are on that.
    Mr. Tidwell. Senator, we share your concerns of course 
about what's going on with the bark beetle infestation 
throughout the West. Traditionally we have infestations that 
come and go. It's part of our pine types and a native pest. But 
we have never seen this level of infestation before. We've 
never seen the spread occur at this level before.
    So we recognize that we need to move forward with this and 
dedicate additional resources. We have--the process of 
completing a bark beetle strategy that will lay out our plans 
for the next few years. I'm hoping that's in final clearance 
now. We should be able to share a copy with you in the 
foreseeable future, in the near future.
    One of the things that that strategy calls for is an 
increase in the dedication of our current budgets to deal with 
this problem. That we plan to dedicate over about $100 million 
a year to focus on dealing with bark beetle in these States. 
This is expanding. With the current environmental conditions, 
the current climate that we have, it's just very, very 
favorable for bark beetles.
    I tell you until we get an extended cold winter, especially 
early winter, we're not going to see this infestation really 
slow down until we run out of trees. So we recognize we need to 
increase our current efforts. So that's one of the things 
you'll see in the strategy is that that's going to be the level 
of dedication of our funding to deal with this problem.
    Senator Barrasso. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Let me pick up, if I might, Chief, on Senator Barrasso's 
comments and before I go there, welcome and thank you for 
taking the time to come to the Hill today.
    As you know, Colorado's forests have been severely affected 
by the beetle infestation. I think we have more acres than any 
other State infested at this time. The bad news is that other 
States are going to reach the level of infestation we're 
experiencing.
    As you know, it's not just about dead trees, but it's about 
the safety of those who travel and recreate near our forest. 
Falling trees can affect the safety of those who travel on 
roads and trails, power lines are at risk, campgrounds, and of 
course they stand there as potential fuel for forest fires.
    One report suggests it's a phenomenal number. But I've had 
it confirmed a number of times that 100,000 trees a day are 
falling. It's a number I can't quite wrap my mind around.
    But we need funding to mitigate these affects. I understand 
that it may be possible for the Forest Service to reprogram 
existing funds to address bark beetle mitigation in Region Two, 
the region that Senator Barrasso and I both are a part of. Do 
you support reprogramming funds to address the bark beetle 
epidemic in Region Two?
    Mr. Tidwell. Senator, we did send a request up late last 
year to reprogram $70 million of carryover suppression funds 
that we believe would have been better used to be able to 
increase our response to the bark beetle. The last time we had 
a serious infestation it was--and this one is much larger than 
what we had, you know, in Southern California a few years ago. 
But at that time Congress was able to appropriate significantly 
more money outside of our strain. I think we received close to 
about $130 million additional dollars to address that 
infestation.
    As much as I'd like to be able to say we can deal with this 
one within our current budget constraint, we'll not be able to 
do all the work that we need to do. So that was one of the 
reasons that we sent up the reprogramming request. We 
appreciate the Senate Appropriation Committee's support of that 
request.
    Senator Udall. I would hope the other body would take note 
of what's happening in the West. That the wiser and cooler 
heads would prevail there as well. Because these are moneys 
that are, in effect, in hand and would be put to very good use. 
If our focus in the Congress should be on jobs and our economy, 
these dollars have a direct connection, particularly in our 
Western economies.
    On that note let me turn to another subject since Senator 
Barrasso has stepped out. But he and I have worked along with 
many members of this committee on legislation that we've 
recently reintroduced that would clarify your authority when it 
comes to permitting non-snow and summertime sport activities on 
Forest Service land. This would be focused particularly at the 
ski industry.
    As you know, the bill--I think I can use these words--
wildly popular, passed this committee unanimously last year. 
Passed the House. We were within a few inches of the goal line 
here in the Senate as the year ran out.
    With this in mind will you be prepared to begin permitting 
summertime activities when the bill is passed in the coming 
months? What action can you take in the interim to prepare for 
that eventuality?
    Mr. Tidwell. Senator, thank you for your leadership to 
provide this legislative solution to a situation where we need 
your help. Our current authorities do not allow us to permit 
summer activities that we feel would be a much better use to 
the infrastructure that exists at our ski resorts. So I just 
want to thank you for your leadership.
    What we're working on right now is to be positioned so that 
we'll have our manual direction in place so that when this 
legislation passes we can quickly move forward and provide the 
direction on how to follow this to the field. Normally it takes 
anywhere from a year to maybe 2 years for us to complete our 
process. So one of the things we want to do is to expedite that 
and actually get working today.
    Depending what comes out of the final legislative process 
we'll be able then to amend. But we're working on it right now 
so that we can move much quicker than we have in the past to be 
able to get the direction to our field.
    Senator Udall. That's excellent, and again, as you know, 
there was no real objection to the bill. It was in a package 
that we were characterizing as an Omnibus Public Lands package.
    There were objections to other legislative initiatives in 
that package. But we must be ready to go. Again, if our focus 
in this Congress ought to be on jobs and the economy, this 
helps rural communities that have shoulder seasons where people 
are laid off and where the activity level isn't what it should 
be to maintain those economies. This would be very helpful.
    If I might on my remaining few seconds, I just--Senator 
Barrasso has stepped out. He and I have worked together on the 
previous 2 topics I raised. He and I may have a slightly 
different points of view on LWCF.
    I want to commend you for the work that you've done. I also 
want to remind the committee that those LWCF dollars which are 
a form of a payback to taxpayers for assets that are developed 
that are finite. They have never been fully directed into 
protecting our public lands and our urban parks and our urban 
forests, all the various areas in which LWCF operates.
    I think we would keep faith to the taxpayers if we saw all 
of those dollars directed into LWCF needs. There is a 
significant backlog. It's a place where Senator Barrasso and I 
might agree when it comes to conservation easements, existing 
infrastructure and the like with those dollars, could be 
directed.
    Finally I don't think you intended to suggest that the 
government is going to tell private property owners what to do 
when it comes to conservation easements. What you were saying 
was that whether it's another tool that could be made available 
to private property owners to maintain open spaces, wildlife 
and the like, if those private property owners want to take 
advantage of those funds and those resources. So I just wanted 
to put that point of view on the record.
    I thank you for being here. Thank you for your service.
    Mr. Chairman, thank you.
    Mr. Tidwell. Senators, thank you for, you know, correcting. 
If I misspoke it's with both of our----
    Senator Udall. No, I don't think you did. I just wanted to 
speak my mind as well.
    Mr. Tidwell. OK.
    Senator Udall. But I don't think you did.
    Mr. Tidwell. Thank you.
    The Chairman. Senator Franken has been here since the 
beginning. Let me call on him and then Senator Hoeven and then 
Senator Johnson and then Senator Manchin.
    Senator Franken. Thank you, Mr. Chairman and thank you, 
Chief for your testimony.
    One of the funding increases in this budget is for the 
Collaborative Forest Landscape Restoration fund. There have 
been some really good projects funded under this program. So I 
don't mean to discredit any of the projects that were funded in 
2010.
    But I'd like to ask about how you determined the geographic 
distribution of these awards because I notice that none of the 
awards went to the upper Midwest. The Minnesota Chippewa and 
Superior National Forest submitted a proposal under this 
program last year. I'd like to see that funded in the next 
round of funding.
    Can you tell me more about what you consider when decided 
which of these projects to fund?
    Mr. Tidwell. Yes, Senator. We have an advisory committee 
that's in place that the project proposals first go to. Then 
they look at multiple factors as far as what's being proposed, 
the level of support, the matching funds that are required. 
Then they make recommendations to me as to which projects 
should go forward.
    Then I take a look at their recommendations. Also we take a 
look at their projects again and then based on that we go 
forward with the selection. The problem we had, and which is a 
really good problem, is this is such a popular program because 
it will allow folks to be able to do work on much larger 
landscapes, be able to have more assurance that funding will be 
there for multiple years so that they can really take on more 
of a long term contracts, etcetera.
    So the response just exceeded what our capability was with 
the first year's funding. It's one of the reasons we've asked 
for full funding. So that we'd not only be able to maintain the 
projects we selected last year, but be able to then look at the 
new proposals and especially the one that you refer to. It's an 
excellent project.
    In fact every project that was submitted ideally should be 
funded. But there's just competition for it. So we look forward 
to hopefully getting----
    Senator Franken. You spoke to my next question which is 
should Congress fund this program at $40 million for FY2012, as 
you've requested, will it fund ongoing projects only or will 
you be able to fund new projects like the one in Minnesota?
    Mr. Tidwell. If we receive full funding we'll be able to do 
both. We'll be able to continue funding with the projects we 
selected plus be able to have funds available for new projects.
    Senator Franken. Thank you.
    One of the 4 priorities you mentioned in your testimony is 
creating jobs in rural communities. We've been talking about 
that. I'm glad that you've prioritized the research on biomass.
    I was just up in Morris, Minnesota where they have a 
biomass gasification combined heat and power pilot project. 
They use a direct energy system to heat the whole campus and 
provide electricity. It's a great system. We need to do more of 
this kind of biomass projects around the country.
    I think woody biomass has an important role to play. 
Because when you manage forests sustainably woody biomass is a 
huge opportunity for renewable energy and job creation. We've 
got a lot of this up in northern Minnesota. I just think we 
need to do more R and D and more pilot projects like this one 
in Morris at the university there to figure out better and more 
efficient ways to use woody biomass.
    Can you tell me more about the Woody Biomass Utilization 
Grant program and what you plan to do with the proposed 
increase in this budget for FY2012?
    Mr. Tidwell. In our budget request we're asking for $5 
million for our Woody Biomass Utilization Grant program to be 
able to provide funding for these various facilities you're 
referring to to be able to get some additional infrastructure 
in place. We need the ability to be able to make use of this 
material that needs to be removed. I'm not talking about the 
saw log material. I'm talking about the residual material that 
often we have the choice of either paying someone to pile it 
and then burn it verses being able to remove it and make 
beneficial use out of it.
    So converting biomass to energy is one of the areas that we 
feel will help not only make use of the material. But it will 
offset the cost of the work that needs to be done. So we feel 
that this grant program is one way that we can encourage some 
additional infrastructure.
    We're also working on 48 different facilities with the 
Department of Energy and Rural Utility Service and Rural 
Development to be able to put packages together to help 
encourage additional infrastructure.
    Senator Franken. Thank you. I agree that we should be using 
this. I mean, it is really, you know, has a zero carbon 
footprint because the CO<INF>2</INF> that it takes to grow the 
stuff is what it releases, so. The gasification plants are 
very, very efficient. So thank you.
    The Chairman. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Chief, thank you for being with us today.
    In North Dakota we don't have quite as many trees as some 
of our sister States like Minnesota, although good wind like 
Minnesota as we were discussing yesterday.
    [Laughter.]
    Senator Hoeven. But fewer trees than many other States. But 
we do have the National Grasslands and not sure how in the 
course of history the Forest Service ended up with the 
grasslands rather than perhaps some other division of USDA. But 
there's some unique challenges in managing the grasslands.
    As you know we have ranchers out there. Certainly that 
creates, I think, a different situation for you than you would 
face in terms of managing forests. One of the questions I have 
for you is the--clearly you manage for multiple uses. But the 
ranchers feel that when there is a dispute with Forest Service 
that they'd like to be able to go to ag-mediation.
    Our farmers and ranchers are used to going to ag-mediation 
services. They feel that that would be a good way to have 
arbitration or dispute resolution and management with the 
Forest Service. They feel that would be a fair venue.
    Please give me your thoughts on using the ag-mediation 
service for that process.
    Mr. Tidwell. Senator, our decisions on the grasslands are 
covered by our appeals process. If we're making a decision that 
results in the suspension or a cancellation, a reduction in the 
number of cattle that's being grazed then we do go--we do use 
the mediation procedures. But if our decisions are not of that 
level of significance than we go through our appeals process 
and that's available to the ranchers.
    So on more significant decisions definitely we go through 
mediation before we move forward with that. But on more of the 
routine decisions then we use our appeals process that's 
available for the ranchers if they disagree with the decision.
    Senator Hoeven. So you say you are going through North 
Dakota ag-mediation services for some of the decisions?
    Mr. Tidwell. Yes. If it's a decision that results in a 
suspension or a reduction in the number of cattle that's being 
grazed we do go through mediation.
    Senator Hoeven. I think the concern--and from the rancher's 
standpoint they're out to make they live there. They work 
there. They're making a living there. They recognize multiple 
use. They're good stewards of the land.
    Their concern is if they go through your internal process. 
How is that in essence, an arbitration or a fair hearing 
process, where both sides are, you know, have the same relative 
standing? So that's their concern with going through a 
mediation service rather than through an internal service of 
the Forest Service.
    The other thing is since USDA has a national appeals 
division why not use the national appeals division that 
everyone else throughout USDA uses? That would certainly 
provide a fair venue and a venue again, where you have both 
parties feeling like they're getting fair treatment. What about 
that approach?
    Mr. Tidwell. You know, Senator I feel our current approach 
is the mix of the 2 processes. That there's been a lot of 
support for our appeals process from everyone that we deal with 
because I think it's proven to be a fair process. If a decision 
is made by the Grassland Supervisor, his decision is appealed 
then to the regional office. So it's a different set of people 
that look at it. So I feel that our appeals process is very 
fair.
    When we're talking about a more significant decision that 
would have an effect on the rancher's operations as far as 
reducing the number of livestock they can run, then we do use 
the mediation process. We also, before we make decisions, want 
to focus on working with folks up front.
    So we actually can reach agreement on what needs to be done 
ahead of time before we make that decision. I mean, that's what 
we really want to focus on so that there's actually less time 
spent after the decision has been made but more time making a 
better decision. That's where we want to just focus our time.
    Senator Hoeven. Chief, are you telling me you're willing to 
use either ag-mediation services or the national appeals 
division for all of these decisions? Are you willing to do 
that?
    Mr. Tidwell. I'm just willing to use the mediation process 
for decisions that result in any reductions or temporary 
suspensions or changes to the number of livestock that they 
operate. But the other decisions that we make I feel that our 
current appeals process is a better way to address those.
    Senator Hoeven. I'd like to follow up with you on this 
because the perception is that's an internal process so it's 
not a fair hearing process. So I'd like to do some more work 
with you on that process.
    Then also and I may have to save this for the next round, 
but talk to you a little bit about using range scientists for 
some of these determinations too. I'll go into that on a follow 
up round then.
    The Chairman. Senator Johnson.
    Senator Johnson. Welcome to Chief Tidwell. Until the last 
century our bark beetle problem was kept in check by periodic 
burning, all intensity burning. Have you got the funding 
available for thinning to keep the pine beetle in check?
    Mr. Tidwell. Senator, you are correct that in the past 
we've had more success to reduce these infestations through 
thinning and actually some harvest and prescribed burning. 
There in South Dakota in the Black Hills we are in a little 
better position than we are in some of the other States. 
Because your Ponderosa Pine type there allows us to be able to 
get out in front of the infestation. So that's one of the 
things that we're currently focused on is as soon as we start 
to see a new outbreak occur there to be able to quickly jump on 
that to remove the infested trees in trying to reduce the 
spread.
    The other key part of it is the burning, prescribed burning 
that we need to use and then thinning of the forests. So you're 
correct that those are the right tools that we need to go 
forward with.
    I feel that the budget request that we put in front of you 
will provide an adequate level of work for us to be able to 
continue along with the additional resources we are going to 
dedicate from all the various budget line items that we can use 
when it comes to bark beetle.
    Senator Johnson. There is both good and bad involved in the 
Black Hills. It's true that Ponderosa Pine is predominant 
although there is a high level of interface between the 
population and the trees.
    I was pleased to see the emphasis on conservation and 
outdoor recreation in the Forest Service budget. I was 
especially pleased that the budget request would include a 
forest blazing program funding for the Blood Run site in 
southeastern South Dakota.
    On the National Grasslands the checkerboard mix of 
ownership can complicate and add cost for both Federal and 
private landowners. A key tool that the Forest Service has to 
address these challenges is exchange of public and private 
lands. This has a benefit of consolidating both public and 
private lands without the expense of acquiring new Federal 
lands.
    Your testimony highlights a proposed pilot land exchange 
program to demonstrate the benefits of consolidating land 
ownership within a National Grassland. Could you elaborate on 
how such a program might work your National Grasslands as 
efficient resources to address other management challenges like 
noxious weeds?
    Mr. Tidwell. Senator, in our budget request we include a 
new concept of a pilot approach there on the grasslands where 
we could take a very focused effort to see if we can't improve 
the efficiency of our land exchanges. They normally take many 
years to complete and what we want to look at through your 
pilot idea is to be able to take a focused effort to see if 
that couldn't really make a difference by focusing on different 
geographical areas in the country instead of our current 
approach where we're trying to do it everywhere at the same 
time.
    So I'm optimistic that with this pilot idea that we can 
actually show a way to increase our efficiency to get these 
done quicker for everyone. It benefits not only the private 
landowner and their management, but it definitely reduces our 
costs, our Administrative costs, the cost of our project 
development if we can consolidate these lands across the 
country. The grasslands is one of the areas where we still have 
quite a bit of a checkerboard land pattern.
    Senator Johnson. Thank you, Chief Tidwell.
    The Chairman. Senator Manchin was here. If Senator Lee does 
not mind, I'll have him go ahead with his questions and then 
have you.
    Go ahead, Senator Manchin.
    Senator Manchin. Thank you. Thank you, Chairman.
    First of all let me thank you for being here and I 
appreciate it very much. I come from West Virginia which is 
probably the most forested State per acre of any State in the 
Nation. It's a tremendous hard wood.
    With that being said, you know, we have some concerns. I've 
been working with the Forestry division on that. But I think as 
a broad question I would ask with the continuing resolution 
what effect does that have on you being able to commit and 
complete and be able to plan for the jobs you need to do as far 
as what Congress has asked you to do? How is it affecting your 
mission?
    Mr. Tidwell. Senator, for us to operate under a continuing 
resolution we're constrained to basically the amount of funding 
that we used for the same period of time during 2010. The way 
that most of our work occurs it's the larger projects that 
occur later in the year during more of the summertime. So under 
a continuing resolution it inhibits us to be able to put 
together our projects, actually start to award contracts even 
for work that will be done later on because we can't go forward 
with it.
    We cannot go forward with any of our large construction 
projects. We can't go forward with any of our Forest Legacy 
projects that we proposed. So we do everything we can to kind 
of minimize the impact.
    But the reality of it is that it really reduces our ability 
to do the planning we need to do. Get the project prep done so 
that contracts can be awarded later this year and people can go 
to work.
    Senator Manchin. You've shared that with, I'm sure.
    Mr. Tidwell. I have when I get asked.
    [Laughter.]
    Senator Manchin. Hopefully we can resolve that for you.
    Also in West Virginia we had a tremendous problem with 
Gypsy Moths. I think you know about that. Ours is we don't have 
the public lands that some States have.
    Most of ours is all fee simple. But the aerial program it 
just moves through our entire State, especially eastern. Has 
there been more of an effort to work with the States on that?
    Mr. Tidwell. Yes, Senator. You know, the approach to a pest 
like Gypsy moth we have to take this all lands landscape scale 
approach and especially in places like your State where we work 
together not only with the States but all the other Federal 
programs. So we can bring all the resources together. With the 
Gypsy moths we've been having some success by taking this 
approach.
    It just doesn't work for any one land owner.
    Senator Manchin. Right.
    Mr. Tidwell. Or for the Federal Government to just deal 
with the issue on their lands when you have the infestation 
that's just across the boundary.
    Senator Manchin. Also we had in a lot of our pines and I 
can't think of the blight that hit the pines, but I'm sure you 
might know about. We were having problems with that also. I 
don't know if you all have been involved in that process of 
working with our States?
    Mr. Tidwell. Yes. We talk a lot about the bark beetles out 
West. But we definitely have bark beetles in the South and in 
the East too.
    We've been having a little more success in this part of the 
country because of our restoration work that we're doing in the 
forests. We've been able to kind of stay ahead of it. That's 
one of the things when I get asked about well, could we move 
funding from some of our Eastern forests out to our Western 
forests to deal with the bark beetle infestation out there?
    The problem with that is that if we slow down the work that 
we're currently doing in this part of the country you'll see 
the bark beetle infestations that occur on the East and the 
South start to increase. I know some would like to see us have 
that level of flexibility, but we're not about to slow down 
what we're doing right now because we're at a good maintenance 
level.
    We're getting the restoration done. We're being able to 
kind of hold the beetles in check. So that's just one of the 
challenges that we have because we have these problems 
everywhere. I don't want anyone to believe that we don't have 
pest issues here in the East.
    Senator Manchin. Thank you, sir.
    The Chairman. Senator Lee.
    Senator Lee. Welcome, Chief Tidwell.
    It's my understanding that you had a role in changing the 
way that recommended wilderness areas on the forest lands, the 
way that they're managed in Region One before you became Chief 
that you had a role in that. Would explain how Region One dealt 
with the recommended wilderness areas? Tell us what plans the 
Forest Service at the Headquarters level has, if any, to 
address recommended forest areas--wilderness areas?
    Mr. Tidwell. Senator, when I was the regional forester in 
our Northern region we continued with some guidance. It was 
just guidance to our forest supervisors that when they were 
going through the planning process to consider which areas 
should be recommended to Congress for consideration as 
wilderness. Our guidelines encourage them to look at the 
current ongoing uses and to factor that into their decisions.
    If you had a lot of established motorized use, a lot of 
snowmobile use that was in that area, and even though there 
were strong wilderness characteristics for those lands, that 
you should factor in those current, ongoing uses into your 
recommendation. Then based on a decision and based on the 
public input that if the recommendation was for certain lands 
to be considered by Congress for wilderness that we're required 
to be able to maintain those wilderness characteristics until 
some time when Congress would act.
    So we want to do a better job on our recommendations to 
make sure that what we are recommending was something that not 
only Congress should consider. But definitely held wilderness 
characteristics and then to be able to maintain those. To the 
point not to encourage non-compatible use until Congress can 
act.
    I've seen some situations where we've made decisions that 
there was in some cases quite a bit of motorized activity in 
these areas. We went ahead and made a decision to recommend 
that. Then by the time Congress has the opportunity to look at 
it the controversy is so great you really don't have a lot of 
decision space left.
    I think it's a better approach to factor that into the 
front end in our recommendations. Then we make a recommendation 
to be able to discourage non-compatible uses until Congress can 
have the opportunity to consider these recommendations. 
Ideally, and it would be my desire, that as soon as the forest 
completed their Forest Plan revision that those recommendations 
would come to Congress. Congress could act on that.
    I think by having a lot of areas that are recommended for 
wilderness, lot of areas that are under wilderness study areas 
that go on for years, I think it just adds to the overall 
controversy about wilderness. I think if we could find a way to 
be able to work in a way that it would be a little bit, I 
guess, earlier for Congress to be able to consider these I 
think it would go a long way to resolve some of the conflict 
around these recommendations.
    Senator Lee. So as to allow the decision to be made by 
Congress rather than at the Administrative level, in other 
words?
    Mr. Tidwell. Only Congress can designate wilderness.
    Senator Lee. Great.
    The Forest Service's proposed budget includes $90 million 
for additional land acquisition. This is very troubling to me 
because I come from a State where the Federal Government owns 
two-thirds of our land. Then exempts itself from taxation on 
those lands.
    So this proposal raises some consternation. Especially at a 
time when we're running an annual deficit estimated to be in 
the range of $1.6, $1.7 trillion in the hole. But it raises 
additional concerns in my State given that as you acquire more 
land that's even less land that we can tax.
    We are 51st in the Nation in terms of per student school 
funding and there are a number of causes for that. But one of 
the biggest contributing factors, if not the biggest is that we 
can't tax two-thirds of our land because it's owned by the 
Federal Government. So how many additional acres is the Federal 
Government proposing to purchase?
    Mr. Tidwell. Senator, I'll get you that number what we 
would plan to accomplish with our request.
    [The information referred to follows:]
The Forest Service plans on acquiring 33,156 acres with the fiscal year 
  2012 budget request of $90 million for the Land Acquisition program.

    Senator Lee. But you've got to have an acreage figure in 
mind because you've got a specific dollar amount in mind.
    Mr. Tidwell. Yes, we also include a list of projects that's 
part of our request. So we submit a list of projects for 
Congress to consider. We don't move ahead with any of those 
projects unless Congress agrees on that.
    Senator Lee. Can you tell me on average how much it costs 
for the Forest Service to maintain an acre of land?
    Mr. Tidwell. You know we manage 192 million acres of 
National Forest System lands along with our, you know, State 
and private programs. So and we do that with the budget that we 
receive each year. So I guess, if there was a--I think as far 
as to how much the cost per acre. It varies depending on the 
activities.
    It's not, you know, it's more of what occurring on that 
land, the level of restoration activities, the construction 
activities that are occurring, you know. That's what 
determines, you know, the price.
    Senator Lee. Sure. Sure. I understand.
    Just like land generally. The price of land is going to 
vary from one acre to another. Not all acres are created equal. 
It's going to cost a different amount of money to manage one 
acre than another.
    But I would like to know. It may take you some time. You 
can respond later if you'd like. Would like to know what the 
average management cost is so if you take into account the 
total management related budget that you've got verses how many 
acres that you manage. That would be good to know.
    Mr. Tidwell. Senator, we'll get back to you with that.
    [The information referred to follows:]
  In fiscal year 2010, we spent an average of $26 per acre to manage 
 national forest lands. This figure takes into consideration the total 
 fiscal year 2010 appropriation minus research and development, state 
   and private forestry except forest health, land acquisition, and 
  unspent FLAME funds. This figure is only the amount spent in fiscal 
year 2010 and is not the total amount needed to manage national forest 
                       lands on a per acre basis.

    Senator Lee. Thank you. I see my time is expired.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Just a few 
quick follow-ups, if I may.
    Chief, I had asked about the delay in decisions. The fact 
that things go up to the Secretary level as they relate to 
inventoried roadless areas. My staff has reminded me that even 
though you've indicated it only takes a couple of hours 
possibly to make decisions, in Alaska we've seen 2 situations 
recently: it took about a year to win a simple permit for a 
microwave tower that was to be placed by a phone company in the 
Chugach National Forest, and then a similar period of time for 
a mine outside of Juneau to get approval for a permit in a 
roadless area.
    It used to, apparently, take a couple weeks which I think 
would be reasonable. But I'm told it's taking longer. I think 
that that is the point that we were trying to make. We don't 
need continued delays. If it has to go up to yet another level 
it causes varying degrees of complication and frustration.
    I wanted to ask you about the Alaska Subsistence Program 
the Chairman had mentioned in one of his questions. This was 
one of those programs where the program is being defunded in 
your budget here. Can you explain to me how and by whom the 
work within the Alaska Subsistence Program will be performed if 
we're eliminating the program? How are we going to do this?
    Mr. Tidwell. Senator, the same people that have been doing 
this work in the past will continue which are many of the folks 
I mean, not only Forest Service folks, but then we also hire 
folks to help, you know, local people in the villages to do 
this work. So the program implementation will stay the same. 
The only difference is that there just wouldn't be a budget 
line item for the program.
    So all this is is an accounting process that just helps our 
accounting system a little bit better. But as far as on the 
ground activities they will not change the people that worked 
in this program last year, the year before, the year before 
that. We'll continue to do that. As you well know this is an 
essential program that we will continue to provide the level of 
funding.
    The other advantage of not having a separate budget line 
item is if something occurs that's unforeseen at this time, and 
we need to actually use more funding. In the past having a 
separate line item we'd have to then--we could spend right up 
to that zero amount and then we could use some of our other 
funds to do the other work.
    It just creates an additional accounting process for--we 
cannot overspend $1 of any budget line item even on these 
relatively small ones or we're subject to anti-deficiencies. So 
it just provides some accounting flexibility. We can work with 
a budget line item like we always have in the past. We could 
make that work. But, you know, as far as on the ground there 
will be no changes.
    Senator Murkowski. Let me ask you this because you gave 
that explanation to the Chairman. His inquiry was about the 
Valles Caldera. There are 3 programs that are defunded, so to 
speak. But you're telling me that the work will still get done, 
and it's just an accounting situation.
    Will the funds that I hope to be directed for the Alaska 
Subsistence program come from Senator Bingaman's Valles Caldera 
operational account? It seems to me that the funding has to 
come from somewhere. It must be reflected somewhere.
    I don't want to get bogged down in the weeds here on 
accounting issues. But if it means that this is a little bit of 
smoke and mirrors when it comes to the budget I think that's 
important for us to know. If it means that we're going to be 
robbing from Peter to pay Paul, or robbing from Jeff to pay 
Lisa, for programs within our States, I think we need to 
understand that as well.
    At this point in time I'm still not clear as to how this 
would actually work. Perhaps you can work with our staffs a 
little bit to provide a little more clarification.
    I wanted to ask one more question related to access. In 
response to Senator Barrasso's question on land acquisition, 
how can you as an agency, when you're not able to maintain the 
lands that you have currently, acquire additional lands?
    You spoke about the issue of access, saying you want to be 
providing access. We have problems in Alaska regarding access 
and my constituents are contacting me about it.
    We've got some small placer miners in the State that have 
been informed that the Forest Service is planning to restrict 
motorized access to some mining claims that are located in the 
Chugach, and also within the Tongass. While some of this may be 
the result of closing some old logging roads that aren't needed 
any longer, some of the complaints appear unconnected to 
budgetary concerns.
    I guess I would like to hear from you what you believe the 
reason is for denying these mining operators within the Chugach 
their opportunity to access their lands. Because this is, as 
you know, this is a big deal for these smaller operators within 
the State there.
    Mr. Tidwell. Senator, I will look into that situation there 
in the Chugach and get back to you.
    [The information referred to follows:]
    Land Management Plans are completed under authority of the 
requirements of the Forest and Rangeland Renewable Resources Planning 
Act of 1974, as amended by the National Forest Management Act of 1976. 
The Chugach National Forest closed a number of roads and trails to 
motorized access in 2002, as directed by the unit's Land Management 
Plan, which was revised that year. Those roads and trails were closed 
based on environmental and economic concerns and were done so with the 
appropriate level of National Environmental Policy Act (NEPA) 
compliance. Motorized access to mining operations in areas otherwise 
closed to motorized use on the Chugach National Forest is routinely 
allowed for mining purposes by written authorization under a Mining 
Plan of Operations, per 36 CFR 228.4.
    Prior to mining activities, the miners must develop and submit a 
Plan of Operations, which will address access needs. The Plan of 
Operations requires NEPA compliance and will enable the Forest to 
identify reasonable access pursuant to the proposed mining activities. 
Stipulations may include restrictions seasonally to protect resource 
values such as road or trail improvements with due consideration of the 
particular and unique needs of the mining operating plan.
    Forest visitors are subject to the same motorized access 
restrictions, including those engaged in nonprofit recreational mining. 
However, the Forest has provided maps to the Gold Prospectors 
Association of America (GPAA) showing locations open to the public that 
are easily accessible near open roads and/or that can be accessed with 
off road vehicles. The Forest has also provided hundreds of GOLD 
PANNING brochures (2010 version) to the association.

    But, you know, we recognize we have a responsibility to 
provide reasonable access. Whether it's to a mining claim 
whether it's to the private property, you know, we have a 
responsibility to do that. So I'll look into this situation and 
get back to you.
    It's, I mean, access is important. It's essential to 
private landowners. It's essential to mining operations. But 
it's also really essential to recreationists.
    What I was referring to with our LWCF acquisitions is that 
there's a lot of places in parts of this country where the 
private landowner, for whatever reason, and sometimes they have 
good reason, that they shut the gates and don't allow people to 
cross their property to get onto the National Forest system 
lands. That's what we try to focus on is to be able to work out 
with a conservation easement to be able to work with the 
landowner. Or sometimes it's just that it takes acquisition to 
be able to acquire that property so that the public can still 
have access to the National Forests.
    So all access is important. We hear just constant requests 
for us to be able to do more to be able to maintain the access 
along with our legal responsibility to provide it for private 
landowners and for mining operations.
    Senator Murkowski. I'd like to follow up with you on this 
to make sure that we're not embarking on a policy now or what 
would appear to result in a policy where we're further 
restricting access. As you point out we're obligated to provide 
that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Shaheen, we're into the second round and you have 
not yet asked a first round of questions. So go ahead and ask 
any questions you have. Then we'll continue with the second 
round.
    Senator Shaheen. Thank you, Mr. Chairman.
    Chief Tidwell, I apologize for missing your testimony this 
morning and much of this hearing. I had another hearing. But I 
did want to be here to ask some questions that I think are 
important to my home State of New Hampshire.
    Because New Hampshire is the second most heavily forested 
State in the country biomass and our timber industry are very 
important to the State. They are becoming increasingly 
important as we look at what options we have in New Hampshire 
and Northern New England to replace oil. We have about 50 
percent of our households that are dependent on oil to heat. 
It's even higher in the State of Maine.
    So we're looking at what alternatives we have. So I'm 
particularly interested in what your department is doing about 
biomass and how you're working with other agencies to address 
that. I was pleased to see the budget proposal was not the deep 
reduction that I thought it might be.
    But particularly if you could address the Community Wood 
Energy program that was established in the 2008 Farm bill and 
it's designed to help local communities with using wood energy 
systems. We have a number of communities in New Hampshire that 
are very interested in that. So can you talk about what you're 
doing and whether the proposed budget that the President has 
requested meets the needs that you're seeing out there in the 
States and communities?
    Mr. Tidwell. Senator, our request, our budget request does 
include $5 million under this program that was provided in the 
2008 Farm bill. This will be the first year that we've been 
able to use that authorization. So these funds along with our 
other programs that provide grants to help encourage new 
facilities to help make use of the biomass.
    The biomass that you so well know is that we're not talking 
about the saw logs. We're talking about the residual material 
that we have to find a way to use it or just pay somebody to 
pile it and burn it and put smoke in the air. That's what we're 
really focused on.
    So any way that we can make better use of that material and 
thus offset some of our demand on fossil fuels. But at the same 
time it also reduces the cost of the restoration work that has 
to occur to be able to maintain these forests that your State 
enjoys.
    Senator Shaheen. Can you also talk a little bit about how 
or if you're working with other agencies to encourage looking 
at the uses for biomass?
    I had the opportunity to talk to Secretary or to question 
Secretary Chu when he was here talking about programs within 
the Department of Energy. It wasn't clear to me that there was 
real coordination going on around potential uses of biomass. It 
seems to me that it's a huge resource that we could really be 
using much better.
    Mr. Tidwell. Yes, Senator.
    We work with the Department of Energy, the Rural Utility 
Service and Rural Development and also with Farm Services to be 
able to put together proposals that we're using all the various 
government programs that are available right now to be able to 
kind of put that together in a package. We're currently looking 
at the opportunity for 48 different facilities around the 
country with the Department of Energy so that we can find the 
best way the government can work together to help support, 
encourage the establishment of this additional infrastructure. 
So we can show people that this is a good thing to do and to be 
able to help them to get started on it. So that's the effort 
that we're doing together.
    It's one of the things that we recognize we need to do more 
of. It's just essential that we bring all the Federal programs 
together at once. Whether it's the Forest Service working with 
one community or it's the Department of Energy.
    Whoever has that lead needs to be able to bring all the 
programs together to make it a lot easier on these communities 
instead of having five or six different meetings. They should 
have to have only one. We should be able to deliver all the 
programs.
    Senator Shaheen. Good. So if we call your office, you can 
tell us how to get to that.
    Mr. Tidwell. Yes.
    Senator Shaheen. That coordinated effort.
    Mr. Tidwell. Yes.
    Senator Shaheen. OK. Thank you.
    Let me just ask one final question. The Androscoggin 
Headwaters Land Conservation project in Northern New Hampshire 
is very important to the watershed throughout the State. It's a 
key priority for our conservation community.
    There is funding in the current budget request for that 
project. But as I'm sure you know that the continuing 
resolution that we've seen passed in the House would make 
significant cuts to the Land and Water Conservation program 
that will help fund that. Can you just talk about how the cuts 
that are being proposed to LWCF what impact that would have on 
local projects like our Androscoggin Headwaters project?
    Mr. Tidwell. Senator, thank you for your leadership with 
this project. This is another example of multiple Federal 
agencies working together, not only with the Forest Service but 
some of the Interior agencies are a partner along with the 
communities in this project. For the FY11 Forest Legacy 
priority list it was ranked at No. 8. So it's ranked very high. 
Again for 2012, the second phase it is ranked No. 9.
    If there's significant cuts to Forest Legacy it will not be 
able to go forward with these projects. As you are well aware 
under a CR we're not able to move forward with it even in FY11 
until we do have a budget.
    Senator Shaheen. Thank you.
    The Chairman. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    Just following up on using ag-mediation services in the 
national appeals process and USDA, our mediation service people 
indicate that under the Forest Service rules it doesn't allow 
you to go to ag-mediation when you're negotiating long term 
grazing agreements. Are you willing to look at your rules so 
that you can and will go to ag-mediation when negotiating those 
long term grazing agreements?
    Mr. Tidwell. You know Senator, I do believe that our 
process that we have in place does work very well if there is a 
disagreement with a decision, especially with our grazing 
agreements. It's just essential that we're able to work 
together. With the Grazing Association to be able to sit down 
with the Forest Service and we'd reach agreements about what 
needs to be in that agreement and then they'd be able to move 
forward.
    Grazing agreements do not have any effect on the number of 
cattle that are run. It doesn't result in any reductions and in 
livestock that are permitted out there. It's just more of a 
basically, an agreement about how we're going to work the roles 
and responsibilities of the Grazing Association, the 
expectations, what the association can expect from the agency. 
So it's essential that we have those in place especially with 
our Grazing Associations.
    But I do think the best approach on that is to be able to 
insist that people come together. They work out their 
differences before the agreement is put into place verses to 
have another process--because I think that would just 
discourage people from working together on the front end of it 
if you have another process that you can go to. So that's where 
I feel our current process works.
    I would just want to continue to encourage our ranchers to 
be able to come together. If it takes a little more time to sit 
down and work out those differences of opinion that's the best 
place. That's the best time verses having anything whether it's 
going through an appeal process or going through mediation.
    If you really want folks to be able to work together I 
think they just need to take the time to work it out. Then we 
can reach agreement. Then we can move forward in a way that I 
think it will be much more productive for everyone involved.
    Senator Hoeven. I appreciate that. No question that's what 
should be done on the front end. Then if they're not able to 
reach resolution are you willing to go to either mediation 
services or to the appeals process that USDA has? That's my 
question to you.
    Mr. Tidwell. We'd have to change our regulations to do 
that.
    Senator Hoeven. Are you willing to look at doing that or 
that something that we would have to try to do legislatively 
then?
    Mr. Tidwell. Senator, I'd like to work with you on this and 
maybe to gain a little more understanding. I have a lot of 
experience dealing with ranchers throughout my career. I worked 
in the northern region. I'm very familiar with grazing 
agreements and the Grazing Association.
    But I would like, if you'd be willing to, I could work with 
you to have a better understanding of this issue. Then we could 
maybe based on that be able to move forward.
    Senator Hoeven. I would very much appreciate that including 
extending an invitation for you to come out to our State as 
well and visit with some of the ranchers and so forth. That may 
be helpful too. But let's do that including perhaps--would you 
be willing maybe to come out to the State and even discuss this 
issue with our ranchers?
    Mr. Tidwell. I'd love the opportunity to get out into the 
field. That's why I started work in the Forest Service. It 
seems it's pretty rare now the days I ever get to go out. So 
I'd appreciate an invitation to come out.
    Senator Hoeven. Great. That'd be good. I hereby extend that 
to you. We'll work with you on that.
    The other thing is in going through the scientific process 
for rangeland management the other thing I'd like to, I guess, 
to put out there for you to respond to is at North Dakota State 
University we have incredible rangeland scientists. Talk about 
using those individuals in the process with your own experts. I 
think that brings credibility and help and maybe a feeling of 
reaching out to our ranchers when you include our rangeland 
scientists. Obviously, I mean, they're experts.
    Your reaction to that?
    Mr. Tidwell. I agree with you that's an excellent approach. 
I mean we do a lot of work not only at your universities, but 
also throughout the country the universities and colleges. I 
think that that is the best way to be able to bring people 
together. So that we have the science there and if it's the 
folks that are from North Dakota, often there is additional 
benefits that if they're hearing it from people that are there 
in North Dakota that it often helps resolve some of these 
issues.
    Senator Hoeven. I appreciate that.
    The other thing is working with NRCS. I think, you know, 
given that this is ranchland. That this is the grasslands 
rather than a forest both from the standpoint of our farmers 
and ranchers as well as bridging with your own people, NRCS can 
be helpful as well.
    Your thoughts?
    Mr. Tidwell. Yes. Just another example of where the Federal 
Government needs to do a better job to work together. So like 
your ranchers whether it's the Forest Service or NRCS that 
they're visiting with or working with whoever it is from the 
Federal Government should understand all the programs that are 
available. So we're working together because especially up in 
your State those ranching operations they're not solely 
dependent on just the grasslands.
    It's also on their own private land. So we've got to be 
able to work that together so that it works for them over time. 
That means we've got to have the flexibility as if we had a 
fire that goes through either their private land or through the 
National Forest, we've got to be able to work together to have 
that flexibility so that they stay in business.
    You know one of the greatest benefits we have from our 
ranching community is the wildlife habitat, the open space that 
they provide verses having their lands being converted to some 
form of development. So it's just essential that we work 
together to keep those folks on the landscape.
    Senator Hoeven. Appreciate that, Chief. Thank you.
    The Chairman. Senator Murkowski, did you have additional 
questions?
    Senator Hoeven, did you have anything else you wanted to 
ask before we adjourn the hearing?
    Senator Hoeven. The only other thing I would just comment 
on, Chief, is I think the other helpful aspect of perhaps 
having you come out and having that dialog is that I think 
ranchers, county commissioners and others that live out on the 
grasslands can also come up with ideas that you may agree with 
that can help you save dollars too in these times of tight 
budgets. So I think that may be an added benefit of that whole 
discussion.
    Mr. Tidwell. I would appreciate that. Thank you.
    Senator Hoeven. OK. Thanks, Chief.
    The Chairman. Chief Tidwell, thank you very much for your 
time. We appreciate your good work. That will adjourn our 
hearing.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]

    [The following statement was received for the record.]

  Prepared Statement of Jan Poling, Vice President, General Counsel & 
        Corporate Secretary, American Forest & Paper Association

                              INTRODUCTION

    The American Forest & Paper Association is the national trade 
association of the forest products industry, representing pulp, paper, 
packaging and wood products manufacturers, and forest landowners. Our 
companies make products essential for everyday life from renewable and 
recyclable resources that sustain the environment.
    The forest products industry accounts for approximately 5 percent 
of the total U.S. manufacturing GDP. Industry companies produce about 
$175 billion in products annually and employ nearly 900,000 men and 
women, exceeding employment levels in the automotive, chemicals and 
plastics industries. The industry meets a payroll of approximately $50 
billion annually and is among the top 10 manufacturing sector employers 
in 47 states.
    Declining federal timber harvests have adversely affected many 
rural communities, resulting in thousands of jobs lost. Actions are 
needed to restore and increase federal timber harvest to help ensure 
adequate fiber supply and address forest health priorities. Within the 
jurisdiction of this committee, we urge you to direct the U.S. Forest 
Service (USFS) to help sustain the forest products industry and the 
vital jobs it supports. Specific suggestions follow.

                NATIONAL FOREST SYSTEM, FOREST PRODUCTS

    The President's Budget Request for the National Forest System (NFS) 
again proposes to create an ``Integrated Resource Restoration'' 
account, incorporating NFS programs previously funded under a slew of 
line items into a single $864 million dollar line item. AF&PA 
understands the Administration's desire to ``accelerate the refocusing 
of national forest management to forest ecosystem restoration project 
work, including global climate change adaptation and mitigation.'' 
However, we do not feel that specifically delineating $80 million from 
IRR for Priority Watershed Projects is appropriate without further 
explanation of how this fund would be used. We also question why the 
Administration has designated $40 million for the Collaborative Forest 
Restoration Fund (CFLRF); the CFLRF originally was intended to be 
funded with ``new'' money, not through diversion from other program 
funding.
    To create forest industry jobs, more federal timber should be made 
available for sale.--At a time when most Americans are concerned about 
jobs and the economy, studies indicate that the USFS timber sale 
program could produce over 6,000 direct and indirect jobs with an 
annual infusion of $57 million into the forest products line item while 
improving the health and reducing the fire risk of forest ecosystems.

                     FOREST INVENTORY AND ANALYSIS

    Targeted research and data collection is needed to support forest 
productivity, forest health, and economic utilization of fiber. The 
Forest Inventory and Analysis (FIA) program within Forest Service 
Research and Development (R&D) is the backbone of our knowledge about 
the nation's forests, and is a vital technical resource that allows 
assessment of the sustainability, health, and availability of the 
forest resource. FIA is utilized by a large swath of stakeholders 
interested in the state of America's forests: forest resource managers 
at mills, land managers, conservation groups, and State and Federal 
agencies all look to the program for data about our nation's forests.
    The Administration has demonstrated an interest in a sustainable 
renewable biomass industry through actions in many agencies. With an 
increased focus on utilizing woody biomass, we do not understand why 
the administration is proposing to cut funding to the very program that 
allows managers to determine sustainability of the forest resource? We 
oppose these unilateral cuts to this valuable program.
    The Forest Resources Information and Analysis (FRIA) program under 
the Cooperative Forestry budget compliments the FIA by providing cost-
share assistance through State contributions to the FIA program. This 
assistance allows states to improve the ongoing FIA assessments offered 
through R&D by improving sampling resolution, increasing sampling 
frequency, and tailoring assessments to address State-specific forest 
resource needs. Reducing FRIA would hinder the abilities of States to 
implement Renewable Portfolio Standards while ensuring the 
sustainability and productivity of forests.
    The full funding level needed for these programs is $76 million for 
the FIA program and $5 million for the FRIA program, which would allow 
the Forest Service to cover 100 percent of U.S. forest lands, expedite 
data availability and analysis, and support our growing data needs in 
the areas of bioenergy and climate mitigation.

                         INTERNATIONAL FORESTRY

    AF&PA's believes that full and effective implementation and 
enforcement of the 2008 Lacey Act amendments will reduce the 
destructive impacts of illegal logging on tropical forests, enable 
American forest product companies to compete on a level playing field, 
and contribute to one of the least expensive ways of cutting global 
greenhouse gas emissions--reduced deforestation and unsustainable 
forest management. A 2005 AF&PA report on illegal logging found that up 
to 10 percent of global timber production could be of suspicious origin 
and that illegal logging depresses world prices for legally harvested 
wood by seven to 16 percent on average. The report also calculated that 
if there were no illegally harvested wood in the global market, the 
estimated value of U.S. wood exports could increase by over $460 
million each year.
    The USFS International Forestry program lends critical technical 
assistance for Lacey Act implementation and to improve sustainable 
forest management practices in developing countries which help reduce 
illegal logging overseas. The International Forestry program has been 
completely cut from the Administration's FY 2012 budget. Although the 
Administration claims the Forest Service will conduct its highest 
priority international work under existing Forest Service authorities, 
it is unclear if funding for Lacey related activities will continue to 
be available and where it would be derived. Despite a budget allocation 
for USDA's Animal and Plant Health Inspection Service (APHIS) Lacey Act 
account in the President's FY 2012 for the first time ($1.5 million), 
AF&PA believes cuts to the International Forestry accounts could be 
detrimental to full Lacey Act compliance and enforcement efforts.

                       STATE AND PRIVATE FORESTRY

    AF&PA applauds the Committee's sustained support for USFS State and 
Private Forestry programs. With ongoing droughts, invasive species 
infestations, and significant forest health problems, private forest 
resources remain vulnerable to damage from threats that do not respect 
public/private boundary lines.
    As you know, private forests provide the bulk of the nation's wood 
fiber supply, while also sequestering huge amounts of carbon from the 
atmosphere, providing millions of acres of wildlife habitat, and 
supplying clean drinking water for millions of Americans. USFS State 
and Private Forestry programs protect these resources from threats 
beyond the capability of small landowners to effectively combat. 
Therefore, we urge funding at no less than their FY2010 enacted levels 
of $49 million for Cooperative Forest Health, $39 million for 
Cooperative Fire Assistance, $29 million for Forest Stewardship, and 
$76 million for Forest Legacy.


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

      Responses of Tom Tidwell to Questions From Senator Barrasso

    Question 1. Managing grazing allotments and completing NEPA 
analysis on grazing allotments is vital to grazing permittees. Last 
year only 53% or 248 of the targeted 460 allotments received NEPA 
analysis. This year the Forest Service target is to complete 360 NEPA 
allotments. However, the proposed budget is cutting $5.2 million from 
Grazing Management. Given the backlog of allotments needing NEPA 
analysis and the difficulty in completing them, why are resources being 
cut?
    Answer. a)``Given the backlog of allotments needing NEPA analysis 
and the difficulty in completing them, why are resources being cut?''
    Tough budget times call for tough budget choices. The FY 2012 
President's Budget proposes $45,445,000 for Grazing Management. Funding 
at this level balances multiple public priorities that are provided by 
the Forest Service. Range Management maintains two activities: managing 
livestock grazing on approximately 90 million acres of national forest 
system land and completing National Environmental Policy Act (NEPA) 
analysis on grazing allotments in accordance with the NEPA schedule 
established under the provisions of the Rescissions Act of 1995 (P.L. 
104-19, section 504).

    b) ``Do you believe you will complete the 360 targeted NEPA 
allotments?''

    Answer. In FY 2010, the Forest Service completed National 
Environmental Policy Act (NEPA) analysis for 248 allotments of the 
targeted 460 allotments. Several factors contributed to the shortfall 
in NEPA accomplishments, including increased complexity of analysis, 
increased workload associated with appeals and litigation, and 
increased costs of gathering comprehensive resource condition and trend 
data to support decisions.
    Based on field input and past performance the NEPA analysis target 
was realigned in FY 2012. The target is to complete NEPA analysis for 
360 allotments in FY 2012. We believe we can achieve this target, but 
this will be impacted by challenges similar to those the Forest Service 
has previously faced and are likely to continue in FY 2012.
    Question 2. The President's recent speech and press release 
promoting his Great Outdoors Initiative included comments to provide 
more ``access'' for the public to reconnect to the outdoors. Yet, the 
Administration's budget proposal calls for a $3 million reduction in 
the Trails budget and $79 million to decommission 2,185 miles of road. 
These two proposals do not appear to be consistent with the Initiative. 
Why reduce the trails budget and decommission more roads--thus 
eliminating access--when the stated objective is increased public 
access and connectivity to our public lands?
    Answer. A reduction in funding does not equate to a reduction in 
``access''. The discussion around access in the Great Outdoors 
Initiative is focused on land acquisition, the forest legacy program, 
and community forests and open spaces. Your question specifically 
addressed the type of access provided by roads and trails. The FY 2012 
President's Budget request provides funds to continue to operate and 
maintain our network of National Forest System (NFS) trails. The 
regions and forests work together to set priorities for maintaining and 
improving trails. We understand the importance of Forest Service trails 
to provide access for the public to the national forests. We continue 
to seek opportunities with partners to leverage resources to maintain 
trails in order to establish a new generation of trail stewards.
    Currently the Forest Service has approximately 370,000 miles of 
system roads. Each year, we decommission less than 1% of this total. 
Many of the roads we decommission are user-created routes that are not 
part of the designated system, or are not needed for access to the 
national forests, and are causing significant environmental damage.
    Decommissioning unneeded roads and trails eliminates adverse 
environmental effects and actually contributes to keeping our ability 
to maintain other access points. Decommissioning is essential to 
operating a safe and sustainable transportation system.
    Question 3. Wildland fires are extremely detrimental to watersheds 
and local communities. Increased erosion, loss of habitat, species and 
economic opportunities are the result. There are currently millions of 
acres of dead and dying timber in the west due to the bark beetle. With 
such a perilous scenario, what is the justification for cutting 19% or 
$396 million from Wildland Fire Management?
    Answer. The Forest Service is committed to redeeming its wildland 
fire management mission and responsibly budgeting for wildland fire 
management. The agency's Wildland Fire Management budget request 
provides sufficient funding to manage wildfires and maintain prior-year 
readiness levels, and provides funding for other high priority projects 
in the federal government. The President's budget is formulated to 
balance the important activities of different program areas, with some 
program reductions necessary to exercise appropriate fiscal prudence.
    The budget also recognizes the importance of integrating fire as a 
critical natural process in land and resource management plans and 
activities, reintroducing fire into ecosystems, managing wildfire 
across landownership boundaries, and applying the best available 
science. To this end, a portion of the $396 million reduction (22%) is 
actually due to the shift in non-WUI hazardous fuels and Collaborative 
Forest Landscape Restoration funds to the Integrated Resource 
Restoration (IRR) account. The bulk of the remaining reduction amount 
is due to the cancellation of prior year unobligated suppression funds. 
Because the FY 2009 and FY 2010 fire seasons were less severe than 
usual, significant funding was carried over from suppression and FLAME 
into FY 2011. Carryover may also occur in FY 2012 and, as such, this 
budget proposes a rescission of some of the anticipated carryover in FY 
2012 to help provide funding for other high priority projects in the 
federal government. Even with the proposed reduced funding in 
suppression and FLAME, and the proposed rescission, the suppression and 
FLAME levels proposed in FY 2012 fully fund the 10-year average.
    Since the submission of the President's Budget bills specifying a 
rescission of $200 million in Suppression carryover from P.L. 112-6 and 
a rescission of $200 million in FLAME carryover in the C.R. funding the 
government for the remainder of the year (P.L. 112-10) have been 
enacted. Funding in Suppression and FLAME for FY 2011 and the new 
appropriations requested in FY 2012 remains sufficient to cover the 10-
year average.

       Response of Tom Tidwell to Question From Senator Bingaman

    Question 1. The acquisition of the Vallecitos High Country Ranch 
has been a high priority for New Mexicans and the Forest Legacy Program 
in recent years. The project is a three-phase project, with phase I 
already completed using FLP funds and Phase II proposed for funding in 
your FY 2011 FLP budget as the #16 project in the nation (out of 38 
total). Yet, with a proposed programmatic increase in FY 2012 of $59 
million and an increase in the total number of projects funded to 46, 
completing the Vallecitos High Country Ranch is not listed on your 
priority list for FY 2012. Can you explain why completing that project 
is not a priority for the Administration and how the Administration 
plans to work with the landowner if the project is suspended before it 
is complete?
    Answer. The Forest Legacy Program project priority list is 
developed each year through a national competitive process. The 
objective of the process is to identify the best projects in the 
country submitted for consideration in a given year. Previous funding 
is not a guarantee of future funding as new phases of a project must 
compete with different projects than the previous phases. Another 
consideration that could impact where a project is on the list is that 
the scoring guidance, which guides how projects are ranked in the 
competitive process, is adjusted each year based on lessons learned 
from the previous year's competitive process. This adjustment and 
clarification of scoring criteria could have an impact on how 
competitive a project is.
    The Vallecitos project is a State and not a Federal project. The 
funds are provided to the State through a grant, and it is the State 
that has the lead in working with the landowner to bring the project to 
completion if that is the State's objective.

      Responses of Tom Tidwell to Questions From Senator Murkowski

    Question 1. Tongass Timber Program: In 2008, the Forest Service 
committed to preparing and offering four 10-year timber sales with a 
volume of 150 to 200 million board feet each in the Tongass National 
Forest. The purpose of these timber sales was to provide sufficient 
assured volume for a single-shift at four medium size manufacturing 
facilities. Without the volume assurance, the industry cannot make the 
investments necessary to upgrade their existing mills or to construct a 
facility that could process the low-grade timber in the region. 
Congress has repeatedly made available pipeline funds to allow the 
Forest Service to prepare these 10-year sales and other timber sales. 
Now we are told that the agency plans to convert two of the 10-year 
timber sales to Stewardship contracts and to offer only half of the 
promised volume and to offer that reduced volume in small parcels. Do 
you realize that when the Forest Service walks away from the 
commitments that it makes to Congress, you risk Congress walking away 
from funding many of the priorities the agency hopes to pursue?
    Answer. In response to Under Secretary Mark Rey's direction in 
September 2008 to develop a work plan and proposed budget to offer four 
ten-year timber sales, each averaging 15-20 million board feet per 
year, the Tongass National Forest identified several areas to analyze 
for 10-year sale programs. The agency shares the same objective in 
keeping a viable forest products industry in place in southeast Alaska, 
a necessary ingredient to achieve the Secretary's restoration goals and 
the Transition Framework.
    The agency will work to provide viable levels of board feet over 
the course of five years to ensure the industry remains solvent. In 
both FY 2009 and FY 2010, the Alaska Region received appropriations 
sufficient to fund two of the four timber sale projects. The two 10-
year timber sales funded by pipeline funds are currently in the 
planning stages, including NEPA compliance, and will continue to move 
forward in FY 2012 and FY 2013. Opportunities to incorporate 
restoration activities within the project areas are being explored and, 
where it is economically and logistically feasible, a stewardship 
contract may be used to implement those harvest and restoration 
activities. Stewardship contracting is one of the available tools that 
managers have at their disposal to implement resource management 
activities and to meet the resource objectives. The volume of timber to 
be sold with these two projects, including volume from stewardship 
contracting, is currently being estimated as a part of the NEPA 
analysis that is ongoing. These two projects are part of the overall 
Transition Framework for Southeast Alaska announced by the Department 
of Agriculture in May, 2010.

                       ALASKA SUBSISTENCE PROGRAM

    Question 2. How will the work that those individuals performed in 
recent years be impacted by the new duties they will be expected to 
take on?
    Answer. At this time, there are no changes being implemented for 
the Alaska Subsistence Program. The Subsistence Program delivery in FY 
2012 would be similar to that implemented in FY 2010. The Subsistence 
Program is a Federal inter-agency responsibility administered by the 
Forest Service, Fish & Wildlife Service, Bureau of Land Management, 
National Park Service, and the Bureau of Indian Affairs. The Forest 
Service will continue to meet its Subsistence Program management 
responsibilities under Alaska National Interest Lands Conservation Act 
(ANILCA). The same people will be performing the same work, just with 
different funds.

       SECURE RURAL SCHOOLS AND COMMUNITY SELF-DETERMINATION ACT

    Question 3. As I understand it, you are proposing to take on the 
Bureau of Land Management's payment responsibilities for their lands in 
Western Oregon under the Secure Rural Schools program. Is the BLM going 
to make contributions to the Forest Service to help cover the cost of 
the program and if so, how much? If not, are they planning to turn over 
management responsibilities on those lands to your agency so that the 
Forest Service can help generate the revenues it will need to cover the 
cost of the payments to the O&C Counties from the O&C Lands timber 
program?
    Answer. The Administration's proposal for reauthorizing the Secure 
Rural Schools Act would not transfer the Bureau of Land Management's 
(BLM) administration of the O&C lands currently administered by the 
BLM, and would not transfer the responsibility for BLM's payments to 
counties. The proposal is shown in the budget under the Forest Service 
merely for the simplicity of showing it in one place. Inter-agency 
transfers would be made to ensure that both the Forest Service and the 
BLM continue covering their respective share of the payments. The 
proposal would not fund payments from receipts generated from these 
lands, continuing the current arrangement under the Secure Rural 
Schools Act.

                      RESOURCE ADVISORY COMMITTEES

    Question 4. About two weeks ago, we sent a bipartisan letter to the 
Secretary of Agriculture urging him to give final approval to the 
Resource Advisory Committees for the 14 remaining Resource Advisory 
Committees that have not been finalized. Can you tell me if the 
Secretary has approved the candidates that were nominated by the 
counties?
    Answer. We are pleased to report that as of March 11, 2011 the 
Secretary of Agriculture has appointed members to all of the Secure 
Rural Schools Act resource advisory committees chartered under the 2008 
re-authorization.

                        FOREST LAND ACQUISITION

    Question 5. The Department has testified to Congress that the 
Forest Service has 60-80 million acres of unhealthy productive 
forestland at risk to insects, disease, and wildfire. It has become 
increasingly apparent through missed targets, reduced outputs, 
increased reliance on managed fire (leaving more acres vulnerable to 
wildland fire damage), and a shift away from active forest management 
that the Forest Service cannot take care of the 193 million acres it 
already has.

          a. Can you give me any reason to use land acquisition rather 
        than land exchanges to acquire important parcels inside 
        National Forests?
          b. Several of your LWCF acquisition recommendations appear to 
        include lands outside the National Forests. Can you provide the 
        Committee with detailed descriptions for each of the proposed 
        acquisitions that show where the lands are relative to other 
        nearby Forest Service Lands?
          c. Also, what is average cost per acre expected to be? Could 
        you have your staff provide a list of lands considered 
        ``excess'' in the most recent forest plan document for each 
        forest involved in each proposed acquisition?

    Answer a). Land acquisition can reduce management costs by 
consolidating landownership, avoiding further fragmented development 
within forest boundaries which can exacerbate fire, insect, and disease 
management challenges. Land acquisitions sought by the Forest Service 
have broad support by stakeholders at the local level and ensure water 
quality, recreational access, wildlife habitat, and other public 
benefits. The Forest Service actively engages in land exchanges where 
there are opportunities to adjust federal ownership patterns while 
conveying lands to non-federal entities. However, land exchanges are 
not always viable options, either because suitable lands are not 
available or because the complexity or controversy associated with an 
exchange makes the exchange impractical. Land exchanges, acquisitions, 
right-of-way acquisitions, and limited sales of Forest Service 
facilities and adjacent land are all important land adjustment tools to 
promote the long-term health and sustainability of the national forests 
and grasslands.
    b). ``Several of your LWCF acquisition recommendations appear to 
include lands outside the National Forests. Can you provide the 
Committee with detailed descriptions for each of the proposed 
acquisitions that show where the lands are relative to other nearby 
Forest Service Lands?''
    In total, 33 out of 38 acquisition projects requested for FY 2012 
are completely within National Forest Administrative boundaries. Of the 
remaining five, two are within congressionally designated areas. One of 
these projects is within the Columbia River Gorge National Scenic Area. 
The Columbia River Gorge National Scenic Area Act gives the Forest 
Service the authority to acquire lands in Special Management Areas (16 
U.S.C. Sec. 544 G). The second of these two congressionally designated 
areas is the Pacific Crest National Scenic Trail. The Forest Service is 
the Administrator for the Trail and has authority to acquire lands and 
interests in land for the purposes of administering the trail (16 
U.S.C. Sec. 1244 (a) (2)). The remaining three projects are directly 
adjacent to a national forest boundary and provide important 
recreational access and habitat connectivity to other federally 
administered or otherwise protected lands, especially in riparian 
areas. Please see the attached details below.

                                               USDA FOREST SERVICE
                                             NATIONAL FOREST SYSTEM
                                           LWCF Land Acquisition List
                                    President's FY2012 Budget Recommendation
                                             Date: February 14, 2011
----------------------------------------------------------------------------------------------------------------
                                                                                   Location of
                                                                                     Forest/        Recommended
           Final Rank                  Project        State    National Forest    Congressional   Funding Amount
                                                                                    Boundary
----------------------------------------------------------------------------------------------------------------
1                                 Hells Canyon NRA  OR         Wallowa-Whitman  100% inside       $1,417,500
----------------------------------------------------------------------------------------------------------------
2                                 Salmon--Selway    ID         Salmon-Challis;  100% inside       $3,500,000
                                   Initiative Area              Sawtooth
----------------------------------------------------------------------------------------------------------------
3                                 Rocky Fork        TN         Cherokee         100% inside       $5,000,000
----------------------------------------------------------------------------------------------------------------
4                                 Shield Ranch      AZ         Coconino         100% inside       $1,500,000
----------------------------------------------------------------------------------------------------------------
5                                 Tenderfoot        MT         Lewis & Clark    100% inside       $5,040,000
----------------------------------------------------------------------------------------------------------------
6                                 Mont. Legacy      MT         Lolo; Flathead   100% inside       $5,000,000
                                   Completion
----------------------------------------------------------------------------------------------------------------
7                                 Cube Cove         AK         Tongass          100% inside       $500,000
----------------------------------------------------------------------------------------------------------------
8                                 Pacific Crest     CA         Multiple         100%              $2,939,500
                                   National Scenic                               Congressionally
                                   Trail                                         Designated
                                                                                 Trail System
----------------------------------------------------------------------------------------------------------------
9                                 Pacific NW        OR/WA      Multiple         100% inside       $2,265,000
                                   Streams
----------------------------------------------------------------------------------------------------------------
10                                North Carolina    NC         NFs in NC        100% inside       $3,576,000
                                   Threatened
                                   Treasures
----------------------------------------------------------------------------------------------------------------
11                                Great Lakes/      MI         Hiawatha;        100% inside       $1,500,000
                                   Great Lands                  Ottawa
                                   (upper)
----------------------------------------------------------------------------------------------------------------
12                                Ophir Valley      CO         Uncompahgre      100% inside       $4,040,000
----------------------------------------------------------------------------------------------------------------
13                                Unita-Wasatch-    UT         Uinta-Wasatch-   100% inside       $1,200,000
                                   Cache                        Cache
----------------------------------------------------------------------------------------------------------------
14                                 Washington       WA         Wenatchee        100% inside       $1,500,000
                                   Cascade
                                   Ecosystem
----------------------------------------------------------------------------------------------------------------
15                                Miranda Canyon    NM         Carson           100% Adjacent     $3,442,000
                                   Property
----------------------------------------------------------------------------------------------------------------
16                                Hoosier           IN         Hoosier          100% inside       $2,100,000
----------------------------------------------------------------------------------------------------------------
17                                Bonneville        UT         Uinta-Wasatch-   100% inside       $1,600,000
                                   Shoreline Trail              Cache
----------------------------------------------------------------------------------------------------------------
18                                Georgia           GA         Chattahoochee-   100% inside       $2,000,000
                                   Mountains &                  Oconee
                                   Rivers
----------------------------------------------------------------------------------------------------------------
19                                Missouri Ozarks   MO         Mark Twain       100% inside       $1,500,000
----------------------------------------------------------------------------------------------------------------
20                                Mitchell Lakes    CO         San Juan         100% inside       $1,300,000
----------------------------------------------------------------------------------------------------------------
21                                Hurdygurdy        CA         Six Rivers       100% inside       $1,750,000
----------------------------------------------------------------------------------------------------------------
22                                Misty Fiords NM   AK         Tongass          100% inside       $500,000
                                   In holdings
----------------------------------------------------------------------------------------------------------------
23                                Deer & Mill       CA         Lassen           80% inside  20%   $1,500,000
                                   Creek Project                                 adjacent
----------------------------------------------------------------------------------------------------------------
24                                Fleming Ranch     CA         San Bernardino   100% inside       $1,500,000
----------------------------------------------------------------------------------------------------------------
25                                Sierra Nevada In  CA         Tahoe; Eldorado  100% inside       $2,000,000
                                   holdings
----------------------------------------------------------------------------------------------------------------
26                                Upper Lochsa      ID         Clearwater       100% inside       $1,000,000
----------------------------------------------------------------------------------------------------------------
27                                Pole Gulch--      MT         Gallatin         100% inside       $1,100,000
                                   Greater
                                   Yellowstone
                                   Area
----------------------------------------------------------------------------------------------------------------
28                                Minnesota         MN         Chippewa;        100% inside       $1,400,000
                                   Wilderness                   Superior
----------------------------------------------------------------------------------------------------------------
29                                Mississippi       IL         Shawnee          100% inside       $1,000,000
                                   Riverfront
                                   Forest
----------------------------------------------------------------------------------------------------------------
30                                Columbia River    WA         Gifford          100% inside       $1,230,000
                                   Gorge NSA                    Pinchot; Mt.     National Scenic
                                                                Hood             Area
----------------------------------------------------------------------------------------------------------------
31                                Greater           ID*        Caribou;         100% inside       $1,100,000
                                   Yellowstone                  Targhee
                                   Area
----------------------------------------------------------------------------------------------------------------
32                                Fiddleback Ranch  WY         Thunder Basin;   100% inside       $1,500,000
                                                                Medicine Bow
----------------------------------------------------------------------------------------------------------------
33                                Wisconsin Wild    WI         Chequamegon-     100% inside       $1,000,000
                                   Waterways                    Nicolet
----------------------------------------------------------------------------------------------------------------
34                                Rockcastle River  KY         Daniel Boone     100% inside       $1,000,000
                                   Watershed
----------------------------------------------------------------------------------------------------------------
35                                Alabama Tracts    AL         NFs in Alabama   100% inside       $1,000,000
----------------------------------------------------------------------------------------------------------------
36                                SC Landscape      SC         Francis Marion;  100% inside       $1,000,000
                                   Protection                   Sumter
----------------------------------------------------------------------------------------------------------------
37                                Plum Creek Tract  LA         Kisatchie        100% inside       $1,000,000
----------------------------------------------------------------------------------------------------------------
38                                Suwannee          FL         NFs in Florida   100% adjacent     $1,000,000
                                   Wildlife
                                   Corridor
----------------------------------------------------------------------------------------------------------------
                                  Total Purchase                                                  $72,500,000
----------------------------------------------------------------------------------------------------------------
                                  Acquisition                                                     $12,000,000
                                   Management
----------------------------------------------------------------------------------------------------------------
                                  Critical In                                                     $5,500,000
                                   holdings/Cash
                                   Equalization
----------------------------------------------------------------------------------------------------------------
                                  Total                                                           $90,000,000
----------------------------------------------------------------------------------------------------------------
* Correction from FS Budget Justification

    c.1) ``Also, what is average cost per acre expected to be?''
    For FY 2012, the approximate average purchase price is estimated to 
be $2,177 per acre. Purchase price is determined by standard federal 
appraisal methods. The Forest Service cannot pay more than the value 
determined by the appraisal. The range among anticipated purchase price 
can vary significantly based upon geographical location and market 
conditions. For example, on the Land and Water Conservation Fund Land 
Acquisition List for FY 2012, Shield Ranch in Arizona, riverfront 
property between two national forests, is about $28,000 per acre. While 
the Fiddleback Ranch within the Thunder Basin National Grassland in 
Wyoming is about $714 per acre.
    c.2) ``Could you have your staff provide a list of lands considered 
``excess'' in the most recent forest plan document for each forest 
involved in each proposed acquisition?''
    Forest Service plans do not delineate lands that are considered 
``excess''. National forest land is not excess to agency needs or for 
public purposes of the National Forest System. When the Forest Service 
sells land or facilities we do so under limited authorities for 
purposes specified under Federal laws, such as the Small Tracts Act, 
Education Land Grant Act, or the Forest Service Facilities Realignment 
and Enhancement Act (FSFREA).
    Question 6. Have you seen the Wall Street Journal article citing a 
booming market for timber sales in Asia? Alaska and the Pacific NW 
could be part of this. But you are not putting up sales even though 
U.S. Forest Service policy now permits some export of federal timber. 
Are you aware of how great the timber market is in China for Alaska 
timber?
    Answer. We are evaluating timber export options. In 2008 the 
regional forester for the Alaska Region recognized that the decline in 
domestic market demand and prices for forest products posed a 
significant threat to the stability and longevity of the remaining 
forest products infrastructure in Southeast Alaska. The export timber 
policy for Region 10 was modified to allow purchasers to ship up to 50% 
of the sale volume to the most advantageous markets outside of Alaska. 
Records indicate that a majority of the Federal timber volume shipped 
from Region 10 is going into the Chinese markets.
    Question 7. Last year your team promised a new transition for 
timber in Alaska. So far, we have seen nothing of this transition. Why 
not? What is the status?
    Answer. The Transition Framework for Southeast Alaska was announced 
by the Department of Agriculture in May 2010 as a joint effort by the 
Forest Service and Rural Development. As part of the Transition 
Framework that relates to forest management, the Tongass National 
Forest has developed an integrated 5-year program of work that will 
facilitate transition in Southeast Alaska from a forest management 
regime that depends primarily on harvesting mature old growth trees to 
one based increasingly on young forest management and restoration 
activities. This plan is posted on www.tongassfutures.net. The program 
of work will further the goals of the USDA Transition Framework, which 
is much broader than timber alone and includes the development of 
sustainable diversified economies throughout the region that are based 
on forest restoration, renewable energy, fisheries and marine 
aquaculture, subsistence, and tourism/recreation, while sustaining and 
transitioning a viable timber economy. An economic mapping study was 
completed in December of 2010 and the broader strategic Transition 
Framework is due later this summer, as previously promised.
    Question 8. In 2008, the Forest Service committed to preparing and 
offering four 10-year timber sales with a volume of 150 to 200 million 
board feet each. The purpose of these timber sales was to provide 
sufficient assured volume for a single-shift at four medium size 
manufacturing facilities. Without the volume assurance, the industry 
cannot make the investments necessary to upgrade their existing mills 
or to construct a facility that could process the low-grade timber in 
the region. Remember, the Forest Service has monopoly power over the 
timber supply in the region. Congress has repeatedly made available 
pipeline funds to allow the Forest Service to prepare these 10-year 
sales and other timber sales. Now we are told that the agency plans to 
convert two of the 10-year timber sales to Stewardship contracts and to 
offer only half of the promised volume and to offer that reduced volume 
in small parcels.
    The 2008 Tongass Land Management Plan (TLMP) provided an 
opportunity for the timber industry to harvest up to 267 million board 
feet per year, but the most recent timber sale schedule (which has been 
renamed a vegetation management schedule) indicates that Region 10 will 
be preparing and offering for sale only 128 million board feet in 2012. 
Does your proposed budget for region 10 provide the funds necessary to 
prepare and offer this amount of timber?
    Answer. The FY 2012 expected National Forest System timber output 
is 2,616 million board feet based on the President's proposed budget. 
The Regional allocations including, Region 10, are currently not 
finalized, making it difficult to predict with certainty the expected 
forest products outputs. Fluctuations in timber values and the Region's 
ability to transition to young stand management will influence final 
timber outputs levels. The FY 2012 President's budget proposes $854,242 
million for the National Forest System's integrated resource 
restoration (IRR) program. This budget line item brings together key 
management resources necessary for maintaining and restoring watershed 
and forest health under one umbrella and directs funding to achieve 
priority work in the most important places. Established performance 
measures such as timber volume, road mileages, acres treated for 
hazardous fuels, and other outputs will continue to be used. Funding 
for IRR is pivotal to achieving increased timber targets, as well as 
other vegetation management targets. As a part of the FY 2012 proposal 
for Integrated Resource Restoration we will assign specific targets to 
each region. Line officers are held accountable, through performance 
reviews, for meeting assigned targets. As described above, in both FY 
2009 and FY 2010, the Alaska Region received appropriations sufficient 
to fund two of the four timber sale projects and some may be considered 
for stewardship contracting. We will continue to work through 
Transition Framework to provide theses sales.
    Question 9. The Region 10 5-year timber sale schedule indicated 
that the agency would be preparing and offering 152 million board feet 
of timber sales in fiscal year 2011, but the most recent periodic 
timber sale announcement indicates that only 38 million board feet will 
be offered this fiscal year. Are we likely to see a similar shortfall 
in timber sales offered in FY 2012?
    Answer. Timber sales offered in FY 2012 will vary due to many 
factors, and the periodic timber sale volume for FY 2012 has not yet 
been finalized.
    The forest will focus on achieving the goals and outcomes 
identified in the FY 2012 budget. This includes a more integrated 
approach that involves bringing key management resources together for 
maintaining and restoring watersheds and forest health. All management 
activities are subject to the National Environmental Policy Act 
process. The Tongass National Forest is focused on achieving FY 2012 
targets and outcomes commensurate with available funding, prevailing 
economic conditions, and situations at given local levels.
    Question 10. The timber industry reports that the ongoing timber 
sale shortfalls are due in large part to constraints on available 
timber that were imposed by the 2008 Tongass Land Management Plan. 
Further, the Secretary of Agriculture has withheld permission to offer 
timber in roadless areas even though roadless areas comprise half of 
the timberland available under the 2008 TLMP.
    The Forest Service has told us that they will not be permitted to 
construct any timber sale roads in Region 10 and further, they have 
been directed to destroy many miles of road. These roads were 
constructed at significant cost to allow access for timber harvest, 
land management activities and recreation. I understand the concern 
about costly road maintenance but remember, the timber industry has 
traditionally provided the necessary road maintenance in Region 10 and 
it is only because of the lack of timber sales that the industry is no 
longer performing road maintenance. It would be unnecessary to destroy 
these roads if the timber sale program in the region, and the thousands 
of jobs that accompanied the timber sale program, were restored.
    The Forest Service controls over 90% of the timberland in Southeast 
Alaska but, as a result of ongoing timber sale shortages, there is only 
one medium-size sawmill still operating in Region 10. What is your 
agency doing to correct this crisis?
    Answer. The Forest Service, USDA Rural Development, and the 
Economic Development Administration (EDA) of the Department of Commerce 
are working together on a Transition Framework, which was outlined in a 
previous response. More information can be found about the Transition 
Framework at www.tongassfutures.net. Domestic and international market 
conditions over the past several years have made it difficult for 
domestic processors to operate in a profitable manner. Costly 
litigation has also added to the difficulties in successfully 
delivering timber sales. A new path, beyond timber sales, is needed. 
The Transition Framework, which is much broader than timber alone and 
includes the development of sustainable diversified economies through 
the region that are based on forest restoration, renewable energy, 
fisheries and marine aquaculture, subsistence, and tourism/recreation, 
while sustaining and transitioning a viable timber economy is due later 
this summer.
    In 2008 the export timber policy in Region 10 was changed to allow 
purchasers to ship up to 50% of the sale volume to the most 
advantageous markets outside of Alaska. The agency fully realizes the 
importance of the forest products industry in the delivery of forest 
management objectives.
    The Alaska Region is working diligently to prepare and offer timber 
sale volume in compliance with the 2008 Tongass Land Management Plan 
and the 2001 Roadless Rule. The Secretary of Agriculture has the 
authority to allow road construction and reconstruction in designated 
roadless areas, per Secretary of Agriculture's Memorandum 1045-155 of 
May 28, 2010. The Tongass National Forest is adapting the way it 
manages roads to reduce resource impacts while allowing for future 
usage. The Forest is putting many of its roads in a stored condition as 
part of its travel management planning, which provides opportunities 
for public input. A stored road is one that the Forest Service intends 
to use again in the future, but that is temporarily closed. Placing 
roads in a stored condition allows the Agency to mitigate many of the 
environmental impacts that can occur due to lack of maintenance, while 
making the roads available for future land management activities. The 
FY 2012 President's Budget request includes approximately $158 million 
for Road Construction and Maintenance, including an estimated $32 
million for engineering support to vegetation projects. Of that, nearly 
$9 million is specifically planned for new road construction 
(approximately 4 to 6 miles) on the Tongass National Forest.
    Question 11. Would you please explain ``species of conservation 
concern'' as discussed in the draft Land Management Planning Rule? It 
seems from the definition provided in the draft that a `responsible 
official' might have overly broad latitude to deem any number of 
species as a ``species of conservation concern'' without undergoing 
sufficient scientific review.
    Answer. The intent of the provisions in the new draft Planning Rule 
is to provide for plant and animal diversity, and to keep common 
species common, contribute to the recovery of threatened and endangered 
species, conserve candidate species, and protect species of 
conservation concern. Responsible officials would be required to 
develop components in plans, using a two-pronged approach of overall 
habitat (ecosystem and watershed) maintenance or restoration combined 
with targeted measures designed to address the needs of specific 
species. In including these requirements, the draft rule recognizes 
that there will be circumstances outside of the Agency's control that 
may impact particular species. The Agency believes that the proposed 
approach is both more reflective of the NFMA, and more implementable 
than the 1982 rule.
    As part of the requirements included in the section on ``diversity 
of plant and animal communities,'' the proposed rule would require 
that,

          (219.9) Within Forest Service authority and consistent with 
        the inherent capability of the plan area, the plan must include 
        plan components to maintain the diversity of plant and animal 
        communities, as follows:

                  (b) Species Conservation. The plan components must 
                provide for the maintenance or restoration of 
                ecological conditions in the plan area to:

                          (3) Maintain viable populations of species of 
                        conservation concern within the plan area. 
                        Where it is beyond the authority of the Forest 
                        Service or the inherent capability of the plan 
                        area to do so, the plan components must provide 
                        for the maintenance or restoration of 
                        ecological conditions to contribute to the 
                        extent practicable to maintaining a viable 
                        population of a species within its range. When 
                        developing such plan components, the 
                        responsible official shall coordinate to the 
                        extent practicable with other Federal, State, 
                        tribal, and private land managers having 
                        management authority over lands where the 
                        population exists.

          (219.19) Species of conservation concern are defined in the 
        proposed rule as ``Species other than federally listed 
        threatened or endangered species or candidate species, for 
        which the responsible official has determined that there is 
        evidence demonstrating significant concern about its capability 
        to persist over the long-term in the plan area.''

    The proposed rule requires that the best available scientific 
information be considered throughout the rule-making process, and the 
responsible official would have to document how the most relevant, 
reliable and accurate science was appropriately interpreted and 
applied, including in determining which species are ``species of 
conservation concern'' for the unit. Forest Service Directives would 
contain specific criteria for selecting species of conservation 
concern. For example, state lists of endangered, threatened, rare, 
endemic, or other classifications of species, such as those listed as 
threatened under State law, may be used to inform the selection of 
species of conservation concern for the unit.
    The proposed rule's requirement for species of conservation concern 
would be to maintain or restore ecological conditions to maintain 
viable populations of species of conservation concern within the plan 
area, within the Agency's authority and consistent with the inherent 
capability of the plan area. Where a viable population of a species of 
conservation concern already exists within the plan area, the 
appropriate ecological conditions needed to maintain the long-term 
persistence of that species would continue to be provided.
    The responsible official would identify ecosystem-level plan 
components to provide the overall ecological conditions needed by a 
species of conservation concern: for example, restoration of mature 
longleaf pine habitat for red-cockaded woodpeckers. In addition, the 
responsible official would identify specific ecological conditions 
needed by a species: for example, providing artificial nesting cavities 
for red-cockaded woodpeckers while longleaf pine stands that can 
provide natural nesting cavities are being restored.
    At times, factors outside the control of the Agency will prevent 
the Agency from being able to maintain a viable population of species 
of conservation concern within the plan area: for example, some of our 
southern forest units are too small to provide nesting habitat for the 
number of pairs needed to provide for a viable population of red-
cockaded woodpeckers solely within the boundaries of the unit. In such 
cases, the proposed rule would require that the Agency provide plan 
components to maintain or restore ecological conditions within the plan 
area for that species, and by doing so to contribute to the extent 
practicable to a viable population across its range.
    Additionally, the responsible official would be required to reach 
out beyond NFS boundaries, to coordinate management with other land 
managers for the benefit of a species across its range. This 
requirement does not impose any management requirements or attempt to 
impose management direction on other land managers--rather, it imposes 
a duty on the responsible official to reach out to work with others and 
to coordinate management to the extent practicable. This requirement 
recognizes that species move across the landscape, and as habitat and 
ecological conditions change, greater cooperation among land managers 
will be necessary to conserve individual species.
    Question 12. What is meant by ``Landscape Planning'' in the Land 
Management Planning Rule?
    Answer. The proposed rule takes an ``all-lands'' approach to 
planning. What this means is that the responsible official would need 
to understand the context for management within the broader landscape, 
to determine the best management plan for a specific unit within the 
National Forest System.
    In the assessment phase, responsible officials would draw on 
information from many sources to understand the social, economic, and 
ecologic conditions and trends relevant to the plan area, and to 
identify the distinctive roles and contributions of the unit in 
providing various multiple uses or benefits to the local community, 
region and nation. In the planning phase, responsible officials would 
provide opportunities for other government agencies and land managers 
to participate, would review the planning and land use policies of 
other governmental entities where relevant to the plan area, and would 
coordinate with other planning efforts to the extent practicable and 
appropriate. In the monitoring phase, responsible officials would 
assess information and data from monitoring on both the unit and the 
broader landscape to determine whether any change to management within 
the boundaries of the plan area might be warranted.
    This approach recognizes that management of national forests and 
grasslands can both impact and be impacted by management or conditions 
on the lands that surround the unit, and that management can be 
improved by understanding that context and communicating with other 
land managers.
    Question 13. How do you envision the Forest Service managing at the 
``landscape'' level, ``irrespective of ownership or other artificial 
boundaries''? And, do you believe that property lines are ``artificial 
boundaries?''
    Answer. While the proposed rule would require an understanding of 
the context for management of NFS lands within the context of the 
broader landscape, the proposed rule explicitly recognizes and affirms 
that Forest Service management authority applies only within National 
Forest System boundaries. Agency managers do not direct or control 
management of lands outside of the National Forest System, nor will 
they conform management on the unit to meet non-Agency objectives or 
policies. In this way, the proposed rule recognizes the importance of 
respecting ownership and jurisdictional boundaries.
    Rather, the framework for collaboration, information sharing, and 
engagement created in the proposed rule encourages responsible 
officials to work with other land managers to address the many natural 
resource and land management issues that cross ownership and 
jurisdictional boundaries, for example: water, fire, wildlife, and 
invasive species. The Forest Service intends to continue to work 
cooperatively and collaboratively with adjoining landowners and 
communities to address these issues. As described in the response to 
Question 12, the proposed rule would require that responsible officials 
understand landscape-scale conditions and trends relevant to the unit 
and invite the participation of other land managers and members of the 
public throughout the planning process for the unit.

          a. How do you envision the Forest Service managing at the 
        ``landscape'' level, ``irrespective of ownership or other 
        artificial boundaries?''

    This ``all lands'' approach recognizes that management issues do 
not stop and start on a property, political, or other boundary line. 
The primary trends and threats that face our Nation's forests such as: 
forest fragmentation, increased urbanization and conversion of 
forestlands, the effects of climate change, severe wildfire, and the 
spread of invasive species cross all jurisdictional boundaries. To be 
successful in addressing these issues we must work with landowners and 
interested parties to conserve, protect, and enhance the Nation's 
forests.
    Forest Service land management authority applies within national 
forest boundaries, and the Forest Service manages lands within the 
National Forest System and its authorities. Consistent with Federal 
law, the Forest Service does cooperate with adjacent landowners, local 
government entities, and others on a range of land management issues, 
including fire suppression, invasive plant control, law enforcement, 
recreational use and access, and other shared priorities. The Forest 
Service, through its planning process and through project specific 
management actions, consults and coordinates with adjacent landowners 
to improve the health, sustainability, and productivity of national 
forests and surrounding lands.
    The Forest Service also provides technical and financial assistance 
to landowners and resource managers to help sustain the Nation's urban 
and rural forests. The Forest Service works with our State partners to 
address those priority landscape-level issues that they identified in 
their Statewide Forest Resource Assessments and Strategies through 
cooperation and coordination across jurisdictional boundaries. The 
primary trends and threats that face our Nation's forests such as 
forest fragmentation, increased urbanization and conversion of 
forestlands, the effects of climate change, severe wildfire, and the 
spread of invasive species cross jurisdictional boundaries. To be 
successful in addressing these issues we must work with landowners and 
interested parties to conserve, protect, and enhance the Nation's 
forests.

          b. And, do you believe that property lines are ``artificial 
        boundaries?''

    The Forest Service respects all boundaries, private property 
rights, and the limits of the Forest Service's land management 
authority. National Forest System employees survey, mark, manage, and 
protect national forest and grassland boundaries in order to protect 
the public's investment in the national forests and grasslands. 
Property lines are legal landownership boundaries whose location and 
extent is defined by the legal land title ownership of the United 
States and the adjoining landowners. The Forest Service does not assert 
Federal management authority on other Federal, State, tribal, county, 
local, private, or corporate lands lying within the exterior perimeter 
boundary of the National Forest System. The Forest Service does 
actively seek opportunities to work cooperatively and collaboratively 
with adjoining landowners and communities to protect both public and 
private estates.
    Question 14. How far from FS boundaries do you think your agency's 
influence should extend?
    Answer. The Forest Service respects all boundaries, private 
property rights, and the limits of the Forest Service's land management 
authority. The primary trends and threats that face our Nation's 
forests (such as forest fragmentation, increased urbanization and 
conversion of forestlands, the effects of climate change, severe 
wildfire, and the spread of invasive species) cross jurisdictional 
boundaries. To be successful in addressing these issues we must work 
with landowners and interested parties to conserve, protect, and 
enhance the Nation's forests.
    Forest Service State and Private Forestry, Research and 
Development, and International Programs provide technical assistance, 
grants, and other support to non-Federal forests and grasslands 
throughout the United States and internationally, consistent our 
authorities and direction. Together Forest Service programs improve 
forest health, sustainability, and productivity, whether in an urban 
forest in Chicago, on private forest land in northern New England, or 
in the rainforests of Africa, and the benefits to the American people 
of these investments are substantial. Likewise, the long-term health 
and resilience of national forests and grasslands directly affect 
surrounding non-federal lands, communities, and waters that are 
adjacent or downstream. Therefore, we implement management decisions to 
improve the long-term health of broader ecosystems and watersheds as 
well as respecting private property rights and the broader interests 
within communities, states, and regions.

                       GREAT OUTDOORS INITIATIVE


    Question 15. The President had a recent speech and there was a 
recent press release promoting the great outdoors initiative including 
a comment to provide more ``access'' to public lands. We don't 
understand why the 2012 Administration budget proposal calls for a $ 3 
million reduction in the Trails budget and $79 million to decommission 
an additional 2,185 miles of road. These two programs do not appear to 
be consistent with the Initiative.

          a. Why decommission more roads (eliminating access) and 
        reducing the Trails program that has millions in deferred 
        maintenance to existing trails?
          b. What impact do you believe the America's Great Outdoors 
        Initiative will have on the management of Forests?
          c. It is clear that many of the same concepts included in the 
        Land Management Planning Rule are also a part of the report. 
        What role did you or others at Forest Service play in drafting 
        the report?

    Answer a). ``Why decommission more roads (eliminating access) and 
reducing the Trails program that has millions in deferred maintenance 
to existing trails?''
    A reduction in funding does not equate to a reduction in 
``access''. There is much to do to ensure the public has the access 
they need to public lands. The discussion around access in the Great 
Outdoors Initiative is focused on land acquisition, the forest legacy 
program, and community forests and open spaces. Your question 
specifically addressed the type of access provided by roads and trails. 
The FY 2012 President's Budget request provides funds to continue to 
operate and maintain our network of National Forest System (NFS) 
trails. The regions and forests work together to set priorities for 
maintaining and improving trails. We understand the importance of 
Forest Service trails to provide access for the public to the national 
forests. We continue to seek opportunities with partners to leverage 
resources to maintain trails in order to establish a new generation of 
trail stewards.
    Currently the Forest Service has approximately 370,000 miles of 
system roads. Each year, we decommission less than 1% of this total. 
Many of the roads we decommission are user-created routes that are not 
part of the designated system, or are not needed for access to the 
national forests, and are causing significant environmental damage.
    Decommissioning unneeded roads and trails eliminates adverse 
environmental effects and actually contributes to keeping our ability 
to maintain other access points. Decommissioning is essential to 
operating a safe and sustainable transportation system.
    The Forest Service will continue to conduct travel analyses, 
including working with the public to determine which roads are needed 
for access, and which can be decommissioned or put in a stored 
condition so that they are available for future land management 
activities.

    b) ``What impact do you believe the America's Great Outdoors 
Initiative will have on the management of Forests?''

    Answer. The America's Great Outdoors (AGO) initiative supports and 
advances the ``all-lands approach to conservation'' articulated by 
Secretary Vilsack and Chief Tidwell. The AGO report recognizes that 
communities and partners need to work across boundaries to sustain the 
landscapes we all share, including National Forest System lands. The 
AGO report outlines some processes for bringing together landowners and 
stakeholders across boundaries to identify common goals and long-term 
outcomes for managing shared landscapes. These processes will assist 
the Forest Service in meeting the challenges of ecological restoration, 
invasive species, watershed degradation, fire and fuels. It will also 
enable us to accomplish more work on the ground by focusing our efforts 
at the landscape level, improving our use of stewardship contracts and 
establishing a consistent planning framework for the agency. Through 
landscape-scale conservation, the Forest Service will be able to meet 
public expectations for the environmental, economic, and societal 
benefits of forest and grasslands.

    c) ``It is clear that many of the same concepts included in the 
Land Management Planning Rule are also a part of the report. What role 
did you or others at Forest Service play in drafting the report?''

    Answer. The Chief of the Forest Service, Tom Tidwell, directly 
engaged with USDA executive leadership on all ten of the major 
components of AGO to provide advice and counsel on the Forest Service 
programs that complement the AGO goals. He personally attended four 
public listening sessions across the country to interact with 
stakeholders about their ideas especially about connecting people to 
the land via landscape scale restoration, community jobs and youth 
opportunities.
    Forest Service employees served on writing teams to draft the 
initial America's Great Outdoors report and Forest Service Senior 
Executives served in leadership positions, in conjunction with agency 
leaders from across the Executive Branch, on these teams. The report 
underwent several revisions which were reviewed and commented on by 
members of these teams. Jim Hubbard, Deputy Chief for State & Private 
Forestry, served as the Forest Service's Executive Lead for the AGO 
effort.
    Question 16. Access to Alaska Lands: Just recently small placer 
miners in Alaska have been informed that the Forest Service is planning 
to restrict motorized access to a host of mining claims in Alaska in 
the Chugach National Forest and also in the Tongass National Forest. 
While some of this may be the result of the Forest Service moving to 
close the use of logging roads no longer needed for future timber sales 
based on a 2008-09 study, some of the complaints appear unconnected to 
budgetary concerns about the lack of funding for maintenance of 
traditional access routes. Clearly access across lands protected by the 
Alaska National Interest Lands Conservation Act is protected by the 
1980 law, but the complaints about access denial for mineral operations 
in the Chugach National Forest is rapidly increasing. What exactly is 
the reason for the attempt to close access, under exactly what scope of 
authority is the Service moving to deny access, and exactly how can 
small miners access their valid claims to minerals under national 
mining law without having the right to motorized access on routes they 
have used for many decades?

    Answer a). ``What exactly is the reason for the attempt to close 
access, under exactly what scope of authority is the Service moving to 
deny access, and''

    Land Management Plans are completed under authority of the 
requirements of the Forest and Rangeland Renewable Resources Planning 
Act of 1974, as amended by the National Forest Management Act of 1976. 
The Chugach National Forest closed a number of roads and trails to 
motorized access in 2002, as directed by the unit's Land Management 
Plan, which was revised that year. Those roads and trails were closed 
based on environmental and economic concerns and were done so with the 
appropriate level of National Environmental Policy Act (NEPA) 
compliance. Motorized access to mining operations in areas otherwise 
closed to motorized use on the Chugach National Forest is routinely 
allowed for mining purposes by written authorization under a Mining 
Plan of Operations, per 36 CFR 228.4.

    b.) ``exactly how can small miners access their valid claims to 
minerals under national mining law without having the right to 
motorized access on routes they have used for many decades?

    Answer. Prior to mining activities, the miners must develop and 
submit a Plan of Operations, which will address access needs. The Plan 
of Operations requires NEPA compliance and will enable the Forest to 
identify reasonable access pursuant to the proposed mining activities. 
Stipulations may include restrictions seasonally to protect resource 
values, such as, road or trail improvements with due consideration of 
the particular and unique needs of the mining operating plan.
    Forest visitors are subject to the same motorized access 
restrictions, including those engaged in nonprofit recreational mining. 
However, the Forest has provided maps to the Gold Prospectors 
Association of America (GPAA) showing locations open to the public that 
are easily accessible near open roads and/or that can be accessed with 
off road vehicles. The Forest has also provided hundreds of GOLD 
PANNING brochures (2010 version) to the association.
    Question 17. Pacific Northwest Research Station Expansion: Last 
year the Alaska Delegation urged the Forest Service by letter to 
consider expanding the size of a co-located new Pacific Northwest 
Research Station Laboratory that is being built at the University of 
Alaska Southeast in Juneau, Alaska. A larger lab facility at that site 
is cost effective since the University of Alaska has funded 
infrastructure costs and because the lab can handle the needs of other 
federal agencies in Southeast Alaska such as the U.S. Fish and Wildlife 
Service, the U.S. Geological Survey and the National Park Service, 
besides handling the research needs of the Forest Service's own new 
Heen Latinee Experimental Forest located in Juneau. Has the Forest 
Service considered, and is it willing to expand the size of the 
research station's laboratory building in Juneau, perhaps either 
through its FY 12 or FY 13 budget, and what is the status of funding 
and construction of the facility that is already underway in Juneau?
    Answer. The Forest Service has carefully considered the option of 
expanding the size of the Juneau Forestry Sciences Laboratory to 
accommodate related federal agencies. Our response is documented in the 
letter that was sent to Senator Murkowski October 21, 2010. The 
difficulties of expanding the current building are due to design 
challenges, environmental concerns, and the lack of authority for the 
Forest Service to build space for other agencies. Expanding the current 
building would also result in delays of 1 to 2 years in construction 
due to the need to redesign the foundation, mechanical systems, and 
amend the environmental assessment. Nevertheless, the Forest Service is 
open to consider co-location of other facilities on the Laboratory 
property. Co-location with a connection to the laboratory building 
would provide benefits similar to expanding the existing building.
    For the currently planned structure, Congress appropriated $4.95 
million in FY 2010 for construction of Phase 1 of the Juneau Forestry 
Sciences Laboratory and a design build contract was awarded in August 
2010. The design is in the final stages and construction is expected to 
start in May 2011. The FY 2011 President's Budget requested $4.96 
million for Phase 2 which will finish out the space for the Forest 
Service needs, if appropriated. Neither the Forest Service or the Fish 
and Wildlife Service have requested funds in FY 2012 for a building 
expansion.
    Question 18. Air Tankers: Would the advanced avionics that the C-
130J aircraft carry that allow them to fly night missions address some 
of the concerns raised about the response to the Station Fire? Given 
the liability concerns regarding flights, would you ever expect the 
agency to authorize such night flights?
    Answer. The C-130J does provide for the ability to fly night 
missions, as do other aircraft. However, much consideration must be 
given to the cost/benefit of flying large airtankers at night and the 
ability to do it effectively and safely. Training and equipment 
requirements must be considered. A thorough risk assessment to address 
collision avoidance and safety of firefighters on the ground must be 
conducted before the Forest Service would consider implementing night 
aerial firefighting. This is a course of action the Forest Service is 
exploring.
    Question 19. Can you provide the Committee with the numbers for the 
remaining operational service life of each of the large airtankers 
currently in the fleet?
    Answer. Over the last few years we have averaged 19 available 
airtankers. Current estimates based on airtanker contractor input show 
that there will be a 50% reduction in total number of legacy (P-2V and 
P3 aircraft) airtankers in the next 10 years. In order to sustain these 
aircraft, contractors will have to continue a strict maintenance and 
inspection program approved by the Federal Aviation Administration for 
the airtanker mission.

          <bullet> P-2V attrition is estimated to begin in 2017.
          <bullet> P-3 attrition is estimated to begin in 2029.

    Question 20. In 2004, the Forest Service grounded the large 
airtanker fleet for half of the fire season to develop better safety 
protocols. Backfilling with helitankers and heavy lift type 1 
helicopters added $80 million to that season's aviation costs. If you 
reconfigure your current fleet to use these types of helicopters after 
the large airtankers are retired, how much would that approach add to 
your annual aviation costs?
    Answer. It is safe to say that costs would increase, but it is 
difficult to answer that question with any certainty as it all depends 
on fire season conditions, the number and type of helicopter and many 
other variables.
    Question 21. The large airtankers are primarily an initial attack 
resource. Eighty-five percent of your annual fire suppression expenses 
are consumed by the roughly 2% of the fires that escape initial attack 
and become expensive, large incident fires. Without large airtankers 
how would your initial attack success rate change?
    Answer. We believe we would be able to maintain initial attack 
success provided the ability to backfill with other air resources is 
achieved. A variety of factors influence our ability to contain fires. 
Large airtankers provide a unique combination of speed, range, and high 
load capacity which can be of critical importance during the initial 
response to wildland fires. In some cases, large airtankers provide the 
only tool available until other assets can be deployed to the site.
    Question 22. Based upon the cost figures from previous fire 
seasons, it appears that every 0.1% improvement in initial attack 
success rate would save about $110-120 million in suppression expenses. 
Does that sound about right to you?
    Answer. In general, there is no direct link that can be established 
between initial attack success and overall suppression expenditures for 
a given year. A variety of factors influence our ability to contain 
fires within initial attack including overall fire activity both 
regionally and nationally which influences the availability of other 
suppression assets: management objectives for any particular unplanned 
fire; and, weather and fuels conditions.
    Question 23. Since the release of the NTSB report in 2004 and the 
Forest Service's response to NTSB's recommendations, it has been a 
known fact that the imposition of an operational service life on the 
large airtanker fleet would result in the current aircraft eventually 
being retired from active service. How quickly has the industry moved 
in 7 years to bring newer aircraft models into the fire fighting 
mission to replace the existing large fixed wing airtanker models?
    Answer. A recent request for information on next generation 
airtanker platforms received over ten responses. The agency continues 
to develop opportunities for the vendor community to transition to more 
modern aircraft.
    Question 24. What steps has the Forest Service taken that might 
encourage the industry to invest money in developing such an aircraft?
    Answer. The agency has transitioned from three year option 
contracts to five year fixed price contracts. This has provided greater 
financial stability for the vendor which allows them to make 
investments in newer aircraft. The agency sponsors a biannual Airtanker 
Forum to engage with the vendors in identifying obstacles to 
modernization, business best practices, and collaborative efforts that 
can meet the agency's needs. Agency staff members regularly meet with 
contractors on these issues. The agency has worked with contractors to 
perform tests to certify new airtanker capabilities.
    Question 25. Do the FARS regulations allow the Forest Service to 
enter into 10 year contracts when it comes to acquiring air craft 
services for these planes? If not, would such authority increase the 
likelihood of the current industry wanting to invest the funding needed 
to develop alternative aircraft?
    Answer. Current FAR regulations do not permit the Agency to enter 
into 10-year contracts to acquire aircraft services. It is difficult to 
ascertain what the industry might say.
    Question 26. In addition to this report, will you provide the 
Committee with an analysis of the strengths and weaknesses of each of 
the options listed at the end of the large fixed wing airtanker 
strategy?
    Answer. This response is based on the NIAC Interagency Aviation 
Strategy, Appendix 12: Wildland Fire Large Airtanker Strategy. The 
airtanker options listed in Appendix 12 are contractual operational 
models.
 option/ model 1: government-owned, contractor-operated business model.
    The USDA Forest Service (FS) would own the airtankers and contract 
for operations and maintenance from private industry. Government 
ownership of these aircraft will result in control over maintenance and 
safety.
Strengths
    Private industry reduces capital investment risk.
    Private industry has operations and maintenance contracting 
opportunities.
    Potential for reduced operating cost over existing contracted 
airtankers.
Weaknesses
    Acquisition cost is very high.
    Private industry would be excluded from airtanker ownership and 
operations.
       option 2-military-owned, military-operated business model.
    UPDATE--Since this option was developed in 2008, the model has 
changed based on discussion with the Department of Defense. The Forest 
Service would own these aircraft and the military would operate and 
maintain them. The modular retardant tank system would be upgraded to 
next generation beyond MAFFS 2, which could increase retardant payload 
and effectiveness.
    This option would be an extension of the military C-130 program 
known as the Modular Airborne Firefighting System or MAFFS. Outside of 
the fire season, the Air Force/ Air National Guard would have access to 
the aircraft for traditional military missions.
Strengths
    Coordination between the Forest Service and the Department of 
Defense.
Weaknesses
    Acquisition Cost of C-130Js is very high.
    Private industry would be excluded from airtanker ownership and 
operations.
    Operational costs would be high based on the MAFFS program 
historical use and operations.
    War and Homeland security issues could impact availability of 
airtankers in this model.
         option 3-contractor-owned, contractor-operated model.
    UPDATE--Since this option was developed in 2008, private industry 
has expressed the desire to remain in the airtanker business and 
modernize their fleet of aircraft. A recent contract request for 
information (RFI) for newer technology airtankers netted over ten 
proposals. Several new technology airtankers may be operational this 
year within the existing contract. The follow on contract Request for 
Proposal to the RFI above is intended to contract for newer airtankers. 
Private industry may be able to provide a majority of the future 
airtanker fleet.
Strengths
    Private industry remains a viable part of the business.
    The Forest Service does not own large airtankers (low initial costs 
to the government).
    The MAFFS program remains a viable wildfire surge asset.
Weaknesses
    Current contracts are for five years. A longer contract period 
could provide reduce financial risk and improve return on investment.
    Question 27. Can you help the Committee understand what other 
programs you will propose to cut to pay for the C-130J aircraft that 
your staff seems to prefer?
    Answer. USDA and the Forest Service are still reviewing all options 
for air support. It is premature at this time to speculate on funding.
    Question 28. Please provide the Committee with the following 
information: 1) expected total cost of the replacement aircraft; 2) how 
many would need to be purchased each year and for how many years the 
purchases would continue; 3) what the expected annual cost of 
operations of each aircraft would be; and 4) compare those costs 
against the alternatives including the re-winging of the existing P-3 
Orion aircraft.
    Answer.

          1). The agency has not yet selected a replacement aircraft 
        model. Nor has it been determined whether the aircraft will be 
        contractor owned or government owned.
          2). It has not been determined whether the aircraft will be 
        contractor owned or government owned. However, to, at a 
        minimum, replace the current fleet 19 aircraft would need to be 
        purchased by either contractors or the government.
          3). Most aircraft models being evaluated cost about $5,000 
        per hour to operate and approximately $10,000 per day for fixed 
        costs.
          4). The Forest Service has analyzed the costs of 
        refurbishment of not only the P-3 but military surplus C-130H 
        aircraft. The aviation industry estimates that complete 
        refurbishment costs could be 80% the cost of a new aircraft of 
        the same make and model. Even with refurbishment, these 
        aircraft will have limited operational life 60% less than a new 
        aircraft. Operating costs of a refurbished P-3 or C-130H could 
        be 60% higher than a new aircraft, but would be less capable 
        (i.e. speed, payload and other capability) because of their 
        older design, engines and flight management technology.

    Question 29. 2008 Farm Bill, Biomass Crop Assistance Program 
(BCAP): This program has great inconsistency, coupled with a start 
(2009) stop (Feb 2010) schedule and a precipitous decline in funding 
since inception. How can you provide an incentive to utilize wood by-
products for biopower and biofuels when there is no consistency and 
predictability to the program? The 2011 OMB budget request for BCAP was 
$196 million. The Administration's 2012 budget proposal is to slash the 
Matching Payment Program to a capped $70 million. Why is this program 
being singled out in the Farm Bill for major budget reductions? Why 
hasn't the Guidance Document been completed and issued to local FSA 
officials to implement the Matching Payment Program when the Rule was 
issued Oct. 27, 2010?
    Answer. The following answer is provided by the Farm Services 
Agency.
    The Biomass Crop Assistance Program (BCAP) was enacted as part of 
the Food, Conservation, and Energy Act of 2008 (2008 Farm Bill). As 
enacted, the 2008 Farm Bill provided the open-ended appropriation of 
``such sums as necessary'' for all expenditures of the program. At the 
time the 2008 Farm Bill was enacted the Congressional Budget Office 
(CBO) estimated that BCAP expenditures would total $70 million over the 
life of the Farm Bill. On June 29, 2010, Congress enacted the FY 2010 
Supplemental Disaster Relief and Summer Jobs Act (P.L. 111-212) which 
capped expenditures for BCAP at $432 million. While the FY 2011 
President's budget included estimated expenditures of $196 million for 
BCAP the only limitation on spending was the cap imposed by Congress. 
The FY 2012 President's budget includes a proposal to cap the Matching 
Payments portion of BCAP at $70 million (the same amount CBO originally 
estimated for the entire cost of BCAP); the Establishment and Annual 
payment portions of BCAP would only be capped by the limitations 
previously imposed by Congress. Efforts to limit expenditures under the 
Matching Payments portion of BCAP have been driven, in part, by 
concerns expressed by Members of Congress and the wood products 
industry regarding resultant market distortions. All guidance 
documentation for the local FSA officials has been disseminated. 
Instructions on applications for Qualifying Biomass Conversion 
Facilities were issued to FSA county offices on December 15, 2010, 
instructions for Project Proposals on December 17, 2010, and 
instructions for requesting matching payments on January 7, 2011.
    Question 30. State and Private Forestry: The Forest Service has 
adopted an ``All Lands'' landscape scale approach to address the 
insect, disease, and wildfire risk to productive forest lands on the 
National Forests. Yet, both last year and this year's 2012 Budget 
Proposal calls for substantial reductions to:

          Forest Health Mgt--Fed. Lands and Coop Lands: $-6.3 million
          State Fire Assistance: -$5.946 million
          Volunteer Fire Assistance: $-7 million
          Economic Action Program: $-5 million

          a.Please explain how you incentivize an ``All Lands'' 
        approach with these State & Private Forestry cuts?
          b. Do you agree that these funds are the heart of 
        incentivizing private land, restoration, and fuels reduction 
        and partnering with state and local fire assistance?

    Answer a). Please explain how you incentivize an ``All Lands'' 
approach with these State & Private Forestry cuts?

    The US Forest Service is committed to the Secretary's ``All Lands'' 
vision for forest conservation and recognizes the need for greater 
collaboration across federal, state, and private forestlands and the 
importance of maintaining working forest landscapes for rural 
economies. The agency will incentivize this ``All Lands'' approach by 
utilizing a mix of programs to conduct work to address insect, disease, 
and wildfire risk on federal lands and to expand this work on all lands 
while also involving programs beyond these budget line items. We will 
continue to build and strengthen our relationships with state and 
private landowners and leverage those partnerships, increasing our 
effectiveness by focusing funds particularly on those priorities 
identified by states and territories in their statewide resource 
assessments and strategies. The Volunteer Fire Assistance program is 
not reduced in the FY 2012 proposal.

    b) ``Do you agree that these funds are the heart of incentivizing 
private land, restoration, and fuels reduction and partnering with 
state and local fire assistance?''

    Answer. The State Forest Resource Assessments are at the ``heart'' 
of the all-lands approach and are more integral than funding levels. 
The US Forest Service recognizes the important work that is done in 
cooperation with our State and local partners through these cooperative 
programs. The President's budget is formulated to balance the important 
activities of different program areas, with some program reductions 
necessary to exercise appropriate fiscal prudence in these difficult 
economic times.
    Question 31. National Forest System: Proposal for an IRR budget 
line item: Since the Chief told us that we needed more mechanical 
treatments even if it means accomplishing less acres burned, why didn't 
all $86 million go to mechanical thinning? (An $86 million increase in 
mechanical thinning would raise the forest products target from 2.4 to 
3.1 bbf)
    The 2010 budget levels for vegetation Budget Line Items was:

          NFTM--$336 million
          NFWF--$143 million
          NFVW--$187 million
          Total = $666 million

    The 2011 IRR proposal added:

          Priority Watershed Projects--$50 million
          CFLRA stewardship contracts--$40 million

    The 2012 IRR proposal calls for:

          An increase in Priority Watershed Projects to--$80 million
          Road decommissioning 2,185 miles at $75 million
          Shift non-WUI Hazardous Fuels (WFHF) to IRR--$86 million

    A Total increase of $200 million over the 2011 proposal
    Performance standards propose:

          2.1.a--Increase the forest products target from 2.4 bbf 
        (2011) to 2.616 bbf (2012)
          2.1.b--2.7 million green tons of by-product (obtained by 
        permit, contract, partnership, etc.)

          a. We do not understand why the Forest Service does NOT view 
        2.1.b as a target. Can you help us understand what you view as 
        hard targets?
          b. We are not sure why the NFTM, NFWF, and NFVW BLIs should 
        be combined; can you help us better understand why this should 
        be done by describing the added accomplishments that would 
        occur in each area that is combined in to the IRR account?
          c. 2010 NFVW was $187 million; why not simply provide 
        performance focus on the priority watershed projects ($80 
        million) coming from NFVW?
          d. We do not understand targeting additional road 
        decommissioning CMRD-$75 million) when that funding is needed 
        to provide engineering support to the vegetation (fuels 
        reduction and mechanical thinning) projects?
          e. We believe adding the WFHF shift ($86 million) to NFTM 
        could provide the ability to increase the forest products 
        performance standard 2.1.a target to 3.1 bbf of solid wood and 
        performance standard 2.1.b target of 3 million green tons for 
        fuelwood and biomass thereby sending the right signal to the 
        Regions and Forests to step up mechanical thinning even if it 
        means less prescribed burning. Can you explain why this should 
        not be done?

    Answer. In response to your question as to why all $86 million did 
not go towards mechanical thinning, mechanical thinning is only one of 
several tools used by the agency to restore landscapes. The IRR 
structure as proposed in the FY 2012 President's budget puts forth 
restoration opportunities as the best approach to increasing products 
and services. This integrated approach will allow the agency to 
accomplish more on the ground work that moves towards the forest health 
and water quality improvement. It emphasizes collaboration and 
stewardship contracting, but also recognizes the vital role traditional 
timber sales play in achieving restoration goals. For example, timber 
volume sold in FY 2011 is expected to increase from 2.4 million board 
feet (MMBF) to 2.6 MMBF in FY 2012. These proposed activities will also 
lead to improving watershed conditions, decommissioning of roads, and 
restoring or enhancing streams. Increasing the forest products output, 
alone, from 2.4 to 3.1 MMBF would decrease project integration, create 
unnecessary conflict with user groups, and would make it more difficult 
to meet our forest health and water quality improvement goals.

    a) ``We do not understand why the Forest Service does NOT view 
2.1.b as a target. Can you help us understand what you view as hard 
targets?''

    Answer.
    The proposed targets identified in the President's FY 2012 budget 
for Integrated Resource Restoration will also supply 2.7 million green 
tons of woody biomass from Federal lands. However, because of economic 
challenges such as limited access, distance from processing centers, 
and profitability, it is difficult to predict if industry will have the 
ability to acquire or use this material. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    b) ``We are not sure why the NFTM, NFWF, and NFVW BLIs should be 
combined; can you help us better understand why this should be done by 
describing the added accomplishments that would occur in each area that 
is combined in to the IRR account?''

    Answer. The integrated resource restoration (IRR) program will 
enable the Forest Service to undertake larger projects and achieve more 
results. The IRR budget line item will focus on holistic results, not 
resource by resource. The IRR budget line item brings together key 
management resources necessary for maintaining and restoring watershed 
and forest health under one umbrella and directs funding to achieve 
priority work in the most important places. The proposed budget 
structure will allow us to do more work and create more jobs. These 
large scale projects help maintain existing manufacturing and workforce 
infrastructure, support biomass facilities to meet existing capacity, 
and stimulate emerging business opportunities.
    IRR moves away from the traditional approaches that are centered on 
localized small scale resource solutions, and moves the agency toward 
evaluating and implementing environmental restoration on a broader 
landscape scale. Funds will be directed to reestablish watershed, 
forest and grassland health, fire-adapted landscapes, and ecosystem 
function. Healthy forests provide for long term utilization of 
materials while improving water quality and reducing the risk of 
catastrophic fires. All of this work will support wood products 
infrastructure and create by-products off of the forests.
    Combing the authorities of the existing programs gives line 
officers the ability and flexibility to meet a wider range of 
ecological, economic and social values than possible under the current 
structure. This process emphasizes collaboration with stakeholders, 
internal multi-disciplinary planning and efficiency efforts, and a 
well-crafted accountability system that will result in better designed 
restoration projects, more community support, fewer appeals, and more 
work accomplished on the ground.
    Performance will be addressed through a combination of outcome 
measures that reflect expected accomplishments toward IRR's restoration 
and maintenance goals at the forest and regional levels over time, as 
well as targets tracking current outputs and reporting items, such as 
board feet, from the former budget line items. This approach will 
provide consistency and transparency about the use of appropriated 
funds under the IRR budget structure.
    Established performance measures such as timber volume, road 
mileages, acres treated for hazardous fuels, and other outputs will 
continue to be used. As a part of the FY 2012 proposal for Integrated 
Resource Restoration we will assign specific targets to each region. 
Line officers are held accountable, through performance reviews, for 
meeting assigned targets.

    c) ``2010 NFVW was $187 million; why not simply provide performance 
focus on the priority watershed projects ($80 million) coming from 
NFVW?''

    Answer.
    A core tenet of the IRR framework is that we need to adapt our work 
in new ways. More of the same old approaches, and line items will not 
get us to more work accomplished. The FY 2012 President's Budget 
request includes a number of budget structure changes designed to 
increase efficiency in program administration, delivery, and to reduce 
redundancy while continuing to support this Administration's highest 
priorities. The FY 2012 President's Budget request will consolidate 
budget line items (BLI) including Wildlife and Fisheries Habitat 
Management, Timber Management, Legacy Roads, National Forest System 
Vegetation and Watersheds, the non-Wildland Urban Interface part of 
Wildland Fire Hazardous Fuels and road decommissioning activities.
    Consolidation of these activities will facilitate a holistic 
approach to landscape management. Singling out any one activity will 
have the effect of minimizing product outputs. A fully integrated 
approach is what is needed. Collectively four components make up the 
IRR framework: 1) Restoration and management of ecosystems; 2) Priority 
Watershed and Job Stabilization; 3) Collaborative Forest Landscape 
Restoration program; and 4) Legacy Roads and Trails.
    Consolidating the BLIs into the IRR structure improves upon 
traditional approaches centered on local, individual small scale 
resource solutions and will move the Forest Service toward evaluating 
and implementing environmental needs on a broad landscape scale, and 
concentrating activities in priority watersheds. Funds will be directed 
to reestablish watershed, forest and grassland health, fire-adapted 
landscapes, and ecosystem function.

    d) ``We do not understand targeting additional road decommissioning 
CMRD-$75 million) when that funding is needed to provide engineering 
support to the vegetation (fuels reduction and mechanical thinning) 
projects?''

    Answer. This budget supports both; the FY2012 President's Budget 
includes approximately $158 million for Road Construction and 
Maintenance, including $32 million for engineering support to 
vegetation projects. This includes support for the construction of new 
roads, as well as maintenance and reconstruction of existing roads.
    The President's Budget is proposing to move the Legacy Roads and 
Trails program ($50,000,000) to the new Integrated Resource Restoration 
program. The focus of the Legacy Roads funding will remain the same as 
it was in previous years: urgently needed road and trail 
decommissioning, and repair, maintenance, and associated activities. 
This includes the restoration of aquatic organism passage and the 
mitigation of other environmental impacts of roads. In addition, the 
Forest Service proposes to move $25 million for priority road 
decommissioning from the Roads Construction and Maintenance program to 
the Integrated Resource Restoration program. Together, these funds will 
constitute the Legacy Roads and Trails component of the Integrated 
Resource Restoration program.

    e) ``We believe adding the WFHF shift ($86 million) to NFTM could 
provide the ability to increase the forest products performance 
standard 2.1.a target to 3.1 bbf of solid wood and performance standard 
2.1.b target of 3 million green tons for fuelwood and biomass thereby 
sending the right signal to the Regions and Forests to step up 
mechanical thinning even if it means less prescribed burning. Can you 
explain why this should not be done?''

    Answer. The FY 2012 budget proposes a shift of WFHF to a proposed 
fund NFRR (Integrated Resource Restoration). IRR does emphasize 
mechanical thinning while addressing larger landscape goals. For 
example, timber volume harvested is expected to increase from 2.4 
million board feet (MMBF) in FY 2011 to 2.6 MMBF in FY 2012. However, 
prescribed burning is also a critical component for meeting many 
forests' restoration objectives.
    Further, a significant board foot shift such as suggested would 
create unneeded conflict, appeals, and litigation. There will be time 
to increase IRR outputs and this program will eventually reach higher 
levels, but not in the first year. Therefore, the proposed IRR 
structure balances commercial output opportunities with restoration 
needs. This integrated approach will allow the Forest Service to 
accomplish more on the ground work that implements our forest health 
and water quality improvement goals. These proposed activities will 
also lead to improving watershed conditions, decommissioning of roads, 
and restoring or enhancing streams.
    Question 32. Capital Improvement and Maintenance: The 
Administration's FY2011 Budget proposes a $79 million reduction in the 
roads program which eliminates the engineering support needed to 
accomplish the vegetation projects. Why is it shown again in 2012?
    Answer. The FY 2012 President's Budget request shifts funding for 
road and trail decommissioning, as well as road and trail repair and 
maintenance for the mitigation of environmental impacts of roads and 
trails associated with restoration work to the Integrated Resource 
Restoration budget line. Shifting these activities to IRR will allow 
the Forest Service to accomplish vegetation projects more efficiently. 
The FY 2012 President's Budget request includes $158 million for Road 
Construction and Maintenance in the following activities: $124 million 
for Operation and Maintenance; $25 million for Reconstruction of 
Existing Roads; and nearly $9 million for New Road Construction in 
Alaska. These amounts include an estimated $32 million for engineering 
support to vegetation projects. This includes support for the 
construction of new roads, as well as maintenance and reconstruction of 
existing roads for vegetation projects.
    Question 33. Wildland Fire Management: We can understand why the 
Agency wants an increase in Most Efficient Level (MEL) of fire 
preparedness. But we don't understand why the Administration doesn't 
require the fire crews to be out doing hazardous fuels work and 
accomplishing targets. Can you help us understand why under-utilized 
fire crews couldn't or shouldn't be doing this type of work when not on 
fires?
    Answer. The agency takes fire readiness seriously and has requested 
the funds to maintain an efficient level of preparedness. Fire crews 
can, and often are assigned, project work that directly accomplishes 
fuels reduction or other land management work. We want to take 
advantage of this dual role where we can so please do let us know where 
we can optimize specific fire crews on the ground. The agency manages 
the Wildland Fire Management programs collaboratively and coordinates 
the deployment of firefighting resources to meet fire management 
objectives. Over the past few years, the Forest Service has taken steps 
to improve performance and reduce costs, such as to align field units 
to better capitalize on shared resources, management oversight, and 
support functions.
    Question 34. We do not believe there should be any increase in 
Preparedness, rather Preparedness crews should be held accountable for 
accomplishing fuels reduction work (WFHF) when they are on standby 
waiting for the fire bell.
    Answer. The FY 2012 budget does move funds from suppression to 
preparedness. However, the cost burden for the restructured resources 
is also shifted. There is no effective increase in Preparedness. In 
past years aviation and cost pools related to preparedness were paid 
out of the suppression account in order to maintain initial attack 
suppression capability. Unfortunately, this procedure artificially 
inflated the 10-year average cost of fire suppression. Therefore, the 
Forest Service has now properly re-aligned the budget to ensure that 
preparedness costs are fully identified separate from suppression. This 
will affect future computations of the 10-year average.
    The agency takes fire readiness seriously and has requested the 
funds to maintain an efficient level of preparedness. Fire crews can, 
and often are assigned, project work that directly accomplishes fuels 
reduction or other land management work. We want to take advantage of 
this dual role where we can so please do let us know where we can 
optimize specific fire crews on the ground. The agency manages the 
Wildland Fire Management programs collaboratively and coordinates the 
deployment of firefighting resources to meet fire management 
objectives. Over the past few years, the Forest Service has taken steps 
to improve performance and reduce costs, such as to align field units 
to better capitalize on shared resources, management oversight, and 
support functions.
    Question 35. As was mentioned under S&PF above, with an ``All 
Lands'' landscape level approach to management, why is there $ 41 
million of cuts proposed to NFP Forest Health, State Fire Assistance, 
and Volunteer Fire Assistance?
    Answer. The agency is committed to the Secretary's ``All Lands'' 
vision for forest conservation and recognizes the need for greater 
collaboration across federal, state and private forestlands and the 
importance of maintaining working forest landscapes for rural 
economies. The agency will incentivize this ``All Lands'' approach by 
utilizing a mix of programs to conduct work to address insect, disease, 
and wildfire risk on federal lands and to expand this work on all lands 
while also involving programs beyond these budget line items. However, 
the President's budget is formulated to balance the important 
activities of different program areas, and some program reductions are 
necessary to exercise appropriate fiscal prudence in these difficult 
economic times. Regarding the proposed reduction in Wildland Fire 
Management State Fire Assistance program, the President's Budget 
proposal of $45,564,000, while down from the FY 2010 enacted level, is 
generally consistent with prior appropriated funding levels for this 
account.

                      RECOMMENDED WILDERNESS AREAS

    Question 36. Everyone is aware of the order Secretary Salazar 
released regarding so-called ``Wild Lands,'' which are nothing more 
than de facto Wilderness Areas designated on BLM lands without 
Congressional approval. Chief Tidwell had a role in changing the way 
Recommended Wilderness Areas on Forest Lands are managed in Region 1 
before he became Chief. Would you explain how Region 1 dealt with 
Recommended Wilderness Areas, and tell us about the plans the Forest 
Service Headquarters has, if any, to address Recommended Wilderness 
Areas?
    Answer. When Chief Tidwell was Regional Forester in Region 1, he 
implemented the National Forest Service policy (Forest Service Manual--
FSM1923.03) which states: ``Any inventoried roadless area recommended 
for wilderness or designated wilderness study is not available for any 
use or activity that may reduce the wilderness potential of an area. 
Activities currently permitted may continue, pending designation, if 
the activities do not compromise wilderness values of the area.''
    Then-Regional Forester Tidwell advised National Forest System units 
to carefully consider the characteristics of these, recommended or 
designated areas while completing their land management plans. When a 
forest system unit issued a draft recommendation for an area, the 
unit's management designation of appropriate uses was to reflect these 
findings. The draft recommendation for uses was then to be put forth by 
the forest unit, during the public involvement process required for 
land management planning, prior to the Forest Service finalizing 
decisions on the plan.
    The Forest Service has received letters from citizen organizations 
and some members of Congress expressing concern about the management of 
recommended wilderness areas. The letters have raised the issue of 
whether recreation uses, such as all terrain vehicles and mountain 
bikes, that would be prohibited if an area is designated as wilderness 
may be allowed to continue pending Congressional action on the 
recommendation. These interim recreation activities may ultimately 
influence whether or not an area is available for wilderness 
designation by Congress.
    In order to thoroughly consider these concerns, we have assigned a 
review team to analyze the implementation of the current Forest Service 
policy. This team expects to complete its work by the summer of 2011. 
Upon completion of the review, the Forest Service will contact 
interested parties, including Members of Congress, with the results and 
options for area management. The Forest Service will analyze any 
proposed change in policy through a public process.

                               RECREATION

    Question 37. The Notice of Intent to develop a Land Management Rule 
mostly ignored recreation. The Draft Rule focuses much more on 
recreation. Why was recreation left out of the NOI, and what emphasis 
should recreation be given by the Forest Service in the final Land 
Management Planning Rule and by Forest personnel?
    Answer. We intended for recreation management to be incorporated in 
principle five of the notice of intent (NOI), ``...plans could foster 
sustainable NFS lands and their contribution to vibrant rural 
economies.'' We realize now that a more explicit recognition of 
recreation would have been better.
    The proposed rule does recognize the importance of recreation to 
the American people and require the unique needs of the recreation 
resource to be addressed throughout the process of assessment; plan 
development, revision or amendment; and monitoring. This process will 
allow each NFS unit to identify unique recreational roles, create plans 
that provide sustainable recreational opportunities and uses, and 
require monitoring of progress toward meeting recreational objectives.
    The proposed rule recognizes the importance of sustainable 
recreation as a multiple use. Sustainable recreation is defined in the 
proposed rule as the set of recreational opportunities, uses and access 
that, individually and combined, are ecologically, economically, and 
socially sustainable, allowing the responsible official to offer 
recreation opportunities now and into the future. Recreational 
opportunities can include non-motorized, motorized, developed, and 
dispersed recreation on land, water, and air.
    The proposed rule requires plan components designed to provide for 
sustainable recreation opportunities and uses, which will contribute to 
the social and economic health of communities. The proposed rule 
recognizes the importance of recreation as a multiple use, and would 
integrate recreation concerns and provide for the unique needs of the 
recreation resource throughout the planning process, including in the 
assessment and monitoring phases. The proposed rule requires that plan 
components provide for sustainable recreation. It also requires the 
responsible official to take sustainable recreation opportunities and 
uses into account when developing plan components to contribute to 
social and economic sustainability.
    We look forward to reviewing input from the public on the proposed 
rule in order to develop our final rule.
    Question 38. As you look to the future use of our National Forests 
in the next 100 years, what is your vision on how these lands should be 
used by the American people?
    Answer. The mission of the USDA Forest Service is to ``sustain the 
health, diversity, and productivity of the Nation's forests and 
grasslands to meet the needs of present and future generations''. Over 
the next 100 years climate change will impact forests and grasslands, 
diminishing the benefits they provide. Climate change affects 
individual species and the stressors and disturbances that shape 
ecological processes and functions. Climate change is not the only 
driver of the changes we have been seeing across America's landscapes. 
Urban growth, markets for wood, a legacy of fire exclusion, loss of 
open space, fire and fuels, invasive species, the spread of forest 
pests and disease, and other factors are also driving change. We will 
face a whole host of challenges over the next 100 years.
    Our commitment to land stewardship and public service is the 
framework within which the national forests and grasslands are managed. 
The Forest Service's Strategic Plan specifies seven agency goals: 1. 
Restore, sustain, and enhance the Nation's forests and grasslands; 2. 
Provide and sustain benefits to the American people; 3. Conserve open 
space; 4. Sustain and enhance outdoor recreation opportunities; 5. 
Maintain basic management capabilities of the Forest Service; 6. Engage 
urban America with Forest Service programs; and 7. Provide science-
based applications and tools for sustainable natural resources 
management. Recently the Forest Service proposed a new planning rule 
that would provide a framework to guide the collaborative and science-
based development, amendment and revision of land management plans that 
promote healthy, resilient, diverse and productive national forests and 
grasslands.
    In 2010 the President introduced America's Great Outdoors (AGO), 
which will help to shape the future of how the Nation's forests will be 
used by the American people. The AGO action plan was created with input 
from some 20,000 Americans, through 56 listening sessions held across 
the United States, and another 150,000 comments received 
electronically. The American people care deeply about their outdoor 
heritage and are willing to take an active role in protecting it now 
and for future generations. Our role is to advocate a conservation 
ethic, promoting health, diversity, and productivity of forests and 
grasslands while listening to and responding to the diverse needs of 
the American people.
    Question 39. How do you view motorized recreation, and how do you 
see the implementation of the Travel Management Rule progressing?
    Answer. Motorized recreation is a long standing and appropriate use 
of National Forest System lands when properly managed and in the right 
places. Implementation of the motor vehicle use maps is progressing 
steadily. As of the end of FY 2010, approximately 68 percent of Forest 
Service administered units had implemented Subpart B of the travel 
management rule and published a motor vehicle use map (MVUM). Subpart 
B, Designation of Roads, Trails, and Areas for Motor Vehicle Use, 
requires each administrative unit to designate those NFS roads, NFS 
trails, and areas on NFS lands that are open to motor vehicle use and 
identify those designations on MVUM. The agency anticipates that nearly 
all MVUMs will be completed by December of 2011. The remaining units 
will implement Subpart B on a schedule determined by available 
resources and competing priorities.
    The Forest Service prepared a Route and Area Designation 
Implementation Guide in May 2010. The purpose of the guide is to assist 
Forest Service employees with implementing route and area designations 
made under the travel management rule, as well as managing off-highway 
vehicle use at the field level.
    Question 40. Do you intend to direct Forests to dedicate the 
necessary funds to adequately and fairly implement the Travel 
Management Rule?
    Answer. The majority of Forest Service administrative units (68%) 
have already completed route and area designations under the travel 
management rule and produced a motor vehicle use map. The Forest 
Service is committed to funding implementation of the travel management 
rule in a targeted, efficient manner.

                         FIRE AVIATION PROPOSAL

    Question 41a. Does the Forest Service wish to acquire new C-130J 
aircraft for firefighting?
    Answer. The agency has not yet selected a replacement aircraft 
model.
    Question 41b. How much will each plane cost?
    Answer. The agency has not selected a replacement aircraft model 
nor has it determined whether the aircraft will be contractor owned or 
government owned.
    Question 41c. How many planes will you need and how soon?
    Answer. To replace the current fleet 19 aircraft would need to be 
purchased by either contractors or the government.
    Question 41d. And in declining budget what programs are you willing 
to cut to free up funding to cover the cost of acquisition?
    Answer. Funding decisions will be made when a specific airtanker 
proposal and type of ownership is settled upon.
    Question 41e. Finally, please explain why your fire and aviation 
experts have not been willing to look at other alternatives, such as 
putting new wings on the existing Lockheed P-3 Orion aircraft which I 
am told can be accomplished at about 1/5th the cost of a new C-130J?
    Answer. The Forest Service has evaluated other alternatives 
including re-winging a P-3. The Forest Service acquired 3 military 
excess P-3Bs in 2006. The intent was to inspect 1 aircraft and repair 
it in accordance with US Navy structural inspection requirements which 
are much less stringent than those needed for the airtanker mission. It 
became apparent that the aircraft would require much more repair than 
originally estimated to meet airworthiness requirement for the 
airtanker mission. The Forest Service has since abandoned this effort 
due to the extreme costs and has transferred 1 of the 3 aircraft to 
another government agency. The aviation industry estimates that 
complete refurbishment costs could be 80% the cost of a new aircraft of 
the same make and model. Even with refurbishment, these aircraft will 
have limited operational life 60% less than a new aircraft. Operating 
costs of a refurbished P-3 or C-130H could be 60% higher than a new 
aircraft, but would be less capable (i.e. speed, payload and other 
capability) because of their older design, engines and flight 
management technology.
      Responses of Tom Tidwell to Questions From Senator Stabenow
    Question 1a. Chief Tidwell, I've heard concerns about the 
consolidation of line items in the National Forest System budget into 
the proposed Integrated Resource Restoration account. This new account 
will constitute more than half of the discretionary funding for the 
National Forest System and will cover functions previously funded 
through 6 separate budget line items. How will Forests with relatively 
successful timber sale programs plan for their land management programs 
under the Integrated Resource Restoration budget?

    Answer a). ``How will Forests with relatively successful timber 
sale programs plan for their land management programs under the 
Integrated Resource Restoration budget?

    Timber targets will continue under the IRR proposal and will 
provide the planning framework. Integrated resource restoration (IRR) 
will facilitate the Forest Service to increase accomplishments on the 
ground to support identified forest health and water quality 
improvement goals. The new IRR structure emphasizes collaboration and 
stewardship contracting, but also recognizes the vital role traditional 
timber sales play in achieving restoration goals. Combining the 
authorities of the existing programs will allow line officers the 
ability to meet a wider range of ecological, economic and social values 
than has been possible under the restricted budget structure of the 
past. The IRR structure will enable larger projects and thus more goods 
and services to be produced. It will encourage multi-faceted 
restoration work with a lower likelihood of appeals and litigation 
because of the collaborative emphasis used to define projects and the 
landscape-level objectives of the projects and activities. In this way 
IRR structure works in concert with the new Proposed Planning Rule, 
which is similarly anticipated to promote integration of various forest 
restoration and watershed protection activities contributing to the 
resilience of ecosystems and landscapes.

    b) ``What assurance do we have that Forests with successful timber 
sale programs will continue to meet their timber targets under the IRR 
program?''

    Answer. Timber targets will continue to be applied. Performance 
will be addressed through a combination of outcome measures that 
reflect expected accomplishments toward IRR's restoration and 
maintenance goals at the forest and regional levels over time, as well 
as targets tracking current outputs and reporting items, such as board 
feet, from the former budget line items. This approach will provide 
consistency and transparency about the use of appropriated funds under 
the IRR budget structure.
    Established performance measures such as timber volume, miles of 
roads decommissioned, acres treated for hazardous fuels, and other 
outputs will continue to be used. As a part of the FY 2012 proposal for 
Integrated Resource Restoration we will assign specific targets to each 
region. Line officers are held accountable, through performance 
reviews, for meeting assigned targets.
    Question 2. As Congress evaluates our renewable energy policies, 
it's important to me to ensure that we incentivize the sustainable use 
of renewable biomass from both public and private forests.

    Answer a). ``If Congress were to adopt a renewable electricity 
standard using the definition of renewable biomass contained in the 
2007 EISA, what would the impact be on communities near the National 
Forests?''

    It is difficult to accurately predict what the impacts would be to 
communities near national forests and grasslands if Congress adopted a 
renewable electricity standard. Assuming that a renewable electricity 
standard would include wood to energy, such a standard would improve 
markets, reduce management costs, and put people to work. In general, 
communities assessing the feasibility of biomass utilization have 
relied on supply studies to determine quantities and availability of 
biomass materials. Those data have been used by communities to 
determine if operations can be sustained. This information is not 
available for all communities near national forests and grasslands, and 
is essential to accurately determine the impacts and feasibility.
    The EISA places limitations on eligible biomass materials. Under 
the EISA, biomass generated through forest management activities such 
as slash and pre-commercial thinning residue, is eligible as a 
renewable fuel only if removed from non-federal forestlands. Materials 
from federal lands do not qualify.

    b) ``What about the ability of states like Michigan with 
substantial acreage of naturally regenerating forests to meet an RES 
using biomass?''

    Answer. Locations with substantial acreage of natural regeneration 
could possibly assist in meeting a Renewable Electricity Standard.

        Responses of Tom Tidwell to Questions From Senator Wyden

                            COUNTY PAYMENTS

    Question 1. In the Administration's proposal to reauthorize the 
county payments program, there is no funding for the county payments 
program in the Bureau of Land Management (BLM) budget. Under the 
existing county payments program, the BLM makes payments to Oregon's 
O&C counties. That obligation arises from the O&C lands that BLM 
administers and for which a timber receipt sharing obligation exists 
under the law that established these lands. My staff has been told that 
the BLM's role in providing county payments to the O&C counties has 
been handed over to the Forest Service, who also appears to be solely 
funding the program from its discretionary budget. I still have not 
received details from the Administration on how much funding in the 
proposed 5 year reauthorization will be used for the BLM payments and 
how such a determination will be made. Can you provide me the amounts, 
under the Administration's proposal, of the county payments program 
funding that will be provided to cover payments to the O&C counties for 
each of the five years of the proposal, how the allocation of funding 
for Forest Service and BLM lands will be made and how the Forest 
Service intends to make payments to cover BLM obligations?
    Answer. The Administration's proposal for reauthorizing the Secure 
Rural Schools Act would not transfer the Bureau of Land Management's 
(BLM) current administration of the O&C lands, and would not transfer 
the responsibility for BLM's payments to counties. The proposal is 
shown in the budget under the Forest Service merely for the simplicity 
of showing it in one place. Inter-agency transfers would be made to 
ensure that both the Forest Service and the BLM continue covering their 
respective share of the payments. We understand the concern about this 
proposal being funded from the agencies' discretionary budgets. The 
Administration is open to working with Congress to fund either through 
discretionary or mandatory appropriations.
    Determination of the Forest Service and BLM payments would be made 
using the same formula as in the current Act. This formula calculates a 
county's adjusted share and applies it to the full funding amount. The 
proposal identifies separate full funding amounts for each of the 
proposal's three purposes: payments for schools and roads; economic 
investment and forest restoration; and, wildfire assistance.
    The proposed funding for each purpose by each agency is shown in 
the following table:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              COUNTY PAYMENTS RESOURCE ADVISORY COMMITTEES

    Question 2. I also understand that the Resource Advisory Committee 
(RAC) appointments under this program have still not been completed, as 
the program heads into the final year of the current reauthorization. 
This has been a very successful part of this program and gets projects 
and funding out on the ground. Without completed RACs, these projects 
and use of these funds is getting held up. What is holding up these 
appointments and can I get your assurance that you will move these out 
soon?
    Answer. We are pleased to report that as of March 11, 2011 the 
Secretary of Agriculture has appointed members to all of the Secure 
Rural Schools Act resource advisory committees chartered under the 2008 
re-authorization.

                            HAZARDOUS FUELS

    Question 3. As I indicated in the hearing, I am troubled that 
hazardous fuels funding in the overall budget has been cut about $10 
million when there remains a strong need to increase the amount of this 
work getting done. As you mentioned in the hearing yesterday, the 
Agency was successful in meeting its timber targets last year. However, 
in terms of acres treated, the agency has fallen short of meeting its 
goals. For example, in the Forest Service FY2012 budget justification 
on page 3-9, the agency only treated 59% of the acres in its target for 
improving the condition class and reducing the risk to communities.
    To me this indicates that the agency is not meeting its own acreage 
targets even when it had more money. And many would say these acreage 
targets themselves are far below what actually needs to get treated. So 
it seems we're taking a step in the wrong direction.
    I want to be clear that I support some of the hazardous fuels work 
that will occur in projects under Collaborative Forest Landscape 
Restoration and I appreciate that the Integrated Resource Restoration 
may help find some efficiencies.
    However, when health of the federal forests in Oregon and elsewhere 
continues to decline and when the agency itself acknowledges the need 
to scale up the acres treated and the projects implemented but notes 
the lack of sufficient funding, it seems that cutting the hazardous 
fuels funding is simply the wrong place to make cuts. Chief Tidwell, 
can you explain to me how the agency is going to be able to make 
progress in treating the necessary acres, getting more projects 
completed and restoring forest health under this budget proposal?
    Answer. There is a strong need to continue fuels reduction work on 
National Forest System lands. There is also recognition of the 
importance of integrating fire as a critical natural process in land 
and resource management plans and activities, reintroducing fire into 
ecosystems, managing wildfire across landownership boundaries, and 
applying the best available science. The FY 2012 budget proposes a 
reduction in hazardous fuels but this is mainly due to a shift of funds 
into the Integrated Resource Restoration (IRR) account. Funding in IRR 
will still be available to accomplish fuels reduction work, and we 
intend to treat a similar number of acres as occurred in the past. 
Those funds in the hazardous fuels account will be focused on the 
highest priority acres in the wildland-urban interface (WUI) to reduce 
risk to communities and help keep firefighters safe.
    In FY 2010, the Forest Service treated over 1.9 million of WUI high 
priority acres and almost 1.3 million of other priority acres, well 
exceeding the agency target for fuels treatment. However, the figure 
reported on acres treated to restore fire-adapted ecosystems, which you 
cited from page 3-9, is accounting for when acres change condition 
class, i.e. when all restoration work has been accomplished such that 
the acres treated are within the natural range of variability of 
vegetation characteristics: fuel composition; fire frequency, severity 
and pattern; and other associated disturbances. To change condition 
class often takes multiple treatments over a number of years. For 
example, a site may need to be thinned, the slash piled, and then 
burned to change the condition class. This may take three field seasons 
for all the work to be completed. Further, acreage alone is not a great 
measure of accomplishment. The priority of these acres is perhaps more 
important. More often than not the priority acres are more expensive 
(near community infrastructure) and therefore we see smaller acreage 
figures in many areas as well.

               PRIORITY WATERSHEDS AND JOBS STABILIZATION

    Question 4. One of the new proposals the Administration made last 
year and again this year is the Priority Watersheds and Jobs 
Stabilization Initiative. This proposal appears to have shifted a bit 
in this year's proposal to focus specifically on implementing action 
plans under the Watershed Condition Framework. Can you tell us more 
about what these action plans are, what forests already have these and 
what steps are being taken for other forests to develop them, and 
finally, what type of work you envision will be performed under this 
program?
    Answer. While many national forests implement a variety of 
activities to improve watersheds, the process for developing watershed 
action plans is new. The first Watershed Restoration Action Plans 
(action plans) will be completed by the end of FY 2011.
    Action plans will identify specific projects required to maintain 
or improve the watershed condition class of priority watersheds. These 
documents identify specific problems affecting watershed conditions, 
determine appropriate projects to address these problems, and propose 
an implementation schedule with project sequencing and potential 
partners. The action plans will help us to link project priorities to 
National goals and strategies. The action plans will also facilitate 
implementation and tracking of watershed condition improvements in a 
consistent manner.
    The Forest Service has classified approximately all 15,000 
watersheds, with substantial Forest Service management responsibility, 
at the sixth-level Hydrologic Unit Code. Classification of watersheds 
is the first step in the Watershed Condition Framework and is the 
necessary precursor to prioritizing watersheds. In the next step, units 
will identify their priority watersheds, and action plans will be 
created for priority watersheds for improvements. By the end of fiscal 
year 2011, the identification of priority watersheds and the 
development of the action plans designed to move priority watersheds to 
an improved condition class will be completed for an estimated 200-300 
high priority watersheds throughout the National Forest System. 
Accomplishments will vary depending in part upon; geography, partner 
contributions, the complexity of land management issues, and 
landownership patterns.
    In order for a priority watershed to be considered for the Priority 
Watershed funding, the local unit must have used the Watershed 
Condition Framework to identify their candidate priority watersheds and 
identified the essential suite of restoration projects for each of 
these watersheds. This eligibility requirement will be an incentive for 
the local units to complete the prioritization/essential project 
process.
    Each action plan will contain a list of essential projects that are 
an integrated suite of management activities focused on maintaining and 
restoring watershed health and thereby improving watershed condition 
class. The options selected may draw from the entire suite of actions 
included in the restoration toolbox but are actions focused on 
addressing the limiting factors associated with one or more of the 12 
watershed condition indicators that are not in properly functioning 
condition. Potential activities include: treating sediment sources from 
old trails, restoring wet meadow habitat to moderate stream flows, 
replacing undersized culverts to restore fish passage and reduce 
habitat fragmentation, reestablishing native fish to historic habitat, 
reestablishing native vegetation to protect stream banks, 
decommissioning roads, ripping old log landings and trails to reduce 
soil compaction, conducting prescribed burns to reduce fuel loading, 
reestablishing forest vegetation on burned areas, improving grazing 
practices to maintain grassland ecosystems, containing and treating 
invasive weeds, and treating insect and disease outbreaks in forested 
stands.

                    CUTS TO LANDOWNERSHIP MANAGEMENT

    Question 5. I noticed the Landownership Management account is 
proposed for a 10% cut. I know cuts are needed and this certainly looks 
like a very obscure place to easily make cuts. However, it is from this 
account that the day to day work of surveying--for example for new 
wilderness boundaries--or completing land exchanges takes place. The 
agency is incredibly backlogged on much of this work. Using the Mt. 
Hood Wilderness legislation as an example--2 years after the bill 
became law the land exchanges implemented under that legislation are 
still slowly working their way through the process. A draft EIS isn't 
even expected until the coming fall, with many more steps to follow. 
I'm told it will be many years before the agency completes the surveys 
of the new wilderness boundaries as well. It seems that these kinds of 
cuts are hurting the basic work the agency needs to get accomplished to 
manage its resources. How do you think the agency can keep up, much 
less catch up, on this backlog of work if the resources funding this 
work continue to be cut?
    Answer. Tough budget times call for difficult budget choices.
    Current surveying and proper line marking activities address the 
most critical and highest priority needs to support litigation, to 
support trespass and encroachment resolutions, to aid in resolving 
title claims or critical survey support for acquisitions and mapping, 
and for describing specially designated area boundaries such as 
Wilderness or Wild and Scenic Rivers. We will continue to target 
available funding toward similar high-priority management needs.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
